<html>
<title> - U.S. TRADE POLICY AGENDA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                        U.S. TRADE POLICY AGENDA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2018

                               __________

                          Serial No. 115-FC08

                               __________

         Printed for the use of the Committee on Ways and Means
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-807                      WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>                   
   



                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio                    BRIAN HIGGINS, New York
PAT MEEHAN, Pennsylvania             TERRI SEWELL, Alabama
KRISTI NOEM, South Dakota            SUZAN DELBENE, Washington
GEORGE HOLDING, North Carolina       JUDY CHU, California
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan
DARIN LAHOOD, Illinois

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of March 21, 2018, announcing the hearing...............     2

                                WITNESS

Honorable Robert E. Lighthizer, Ambassador, United States Trade 
  Representative.................................................     6

                        QUESTIONS FOR THE RECORD

Question from Ways and Means Committee Chairman Brady to 
  Ambassador Lighthizer..........................................    92
Questions from Ways and Means Committee Ranking Member Neal to 
  Ambassador Lighthizer..........................................    93
Questions from Trade Subcommittee Chairman Reichert to Ambassador 
  Lighthizer.....................................................    98
Questions from Trade Subcommittee Ranking Member Pascrell to 
  Ambassador Lighthizer..........................................    99
Questions from Representative Nunes to Ambassador Lighthizer.....   109
Questions from Representative Lewis to Ambassador Lighthizer.....   110
Question from Representative Roskam to Ambassador Lighthizer.....   114
Question from Representative Larson to Ambassador Lighthizer.....   114
Questions from Representative Paulsen to Ambassador Lighthizer...   115
Questions from Representative Black to Ambassador Lighthizer.....   120
Questions from Representative Sanchez to Ambassador Lighthizer...   123
Questions from Representative Sewell to Ambassador Lighthizer....   124
Questions from Representative Meehan to Ambassador Lighthizer....   125
Questions from Representative DelBene to Ambassador Lighthizer...   126
Question from Representative Chu to Ambassador Lighthizer........   127
Questions from Representative Jason Smith to Ambassador 
  Lighthizer.....................................................   128
Questions from Representative Walorski to Ambassador Lighthizer..   129
Questions from Representative LaHood to Ambassador Lighthizer....   131

                       SUBMISSIONS FOR THE RECORD

American Farm Bureau Federation..................................   133
American Fuel & Petrochemical Manufacturers (AFPM)...............   138
Air-Conditioning, Heating, & Refrigeration Institute (AHRI)......   144
Berry Global, Incorporated.......................................   150
Center for Fiscal Equity.........................................   152
Consumer Technology Association (CTA)............................   156
Flexible Packaging Association (FPA).............................   158
Learning Resources, Incorporated (LR)............................   164
National Association of Home Builders (NAHB).....................   170
National Foreign Trade Council (NFTC)............................   174
National Lumber and Building Material Dealers Association 
  (NLBMDA).......................................................   176
Precious Metals Association of North America (PMANA).............   182
Small Business & Entrepreneurship Council (SBE Council)..........   185
Association for Accessible Medicines (AAM).......................   189

 
                        U.S. TRADE POLICY AGENDA

                              ----------                              


                       WEDNESDAY, MARCH 21, 2018

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
1100, Longworth House Office Building, Hon. Kevin Brady 
[Chairman of the Committee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Wednesday, March 21, 2018
FC-08

                  Chairman Brady Announces Hearing on

                        U.S. Trade Policy Agenda

    House Ways and Means Chairman Kevin Brady (R-TX), announced today 
that the Committee will hold a hearing on the U.S. trade policy agenda 
with U.S. Trade Representative Robert Lighthizer. The hearing will take 
place on Wednesday, March 21, 2018, in room 1100 of the Longworth House 
Office Building, beginning at 10:00 a.m.

      
    In view of the limited time to hear the witness, oral testimony at 
this hearing will be from the invited witness only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.

      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Wednesday, April 4, 2018. For questions, or if you encounter 
technical problems, please call (202) 225-3625.

      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.

      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.

      
    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and fax numbers of each witness must be included in 
the body of the email. Please exclude any personal identifiable 
information in the attached submission.


    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days' notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available at
    http://www.waysandmeans.house.gov/

                                 
    Chairman BRADY. Good morning. The Committee will come to 
order. Before we get started this morning I just wanted to take 
a moment to express my sincerest condolences on the passing 
last week of our friend and colleague, Representative Louise 
Slaughter. She was truly an institution within this body, and 
her candor, intelligence, her humor, and her passion will be 
deeply missed.
    Today our Committee is honored to welcome back U.S. Trade 
Representative Robert Lighthizer to testify on President 
Trump's trade policy agenda. Ambassador, thank you so much for 
joining us.
    Our country was born because of trade. We have led the 
world in commerce and trade for the last century. Trade is part 
of everything we do as Americans. The freedom to trade is our 
greatest economic freedom. So freedom to buy, sell, and compete 
anywhere in the world with as little government interference as 
possible. Through trade America has built roads and bridges, 
towns and cities. We have brought peace, freedom, and hope to 
our people and the nations of the world.
    At this moment we stand at a crossroads. If we stand still 
or worse take the path of isolationism we will abandon our 
greatest freedom in the very DNA of what makes us Americans. 
There is a better path. We are already seeing benefits from the 
historic tax cuts that President Trump just signed into law, 
which is increasing America's competitiveness and making us the 
best place on the planet to do business in. Our trade policy 
must build on that growth.
    In the competitive world it is not enough to merely buy 
American, we have to sell American to billions of customers 
outside America. That is how we help our local businesses and 
farmers create American jobs and spur American economic growth. 
Mr. Ambassador, America must continue to lead. And we lead and 
Americans win when we open up markets for our products and 
services through high standard, ambitious and enforceable trade 
agreements. This has to be our top priority.
    If we don't break open new markets through trade agreements 
with countries like Japan, the U.K., and the Trans-Pacific 
Partnership 11 we will be left behind. China and Europe will 
write the rules, and they will cut American producers and 
workers out of other markets. We can't wait any longer while 
others pass us by.
    I strongly support President Trump's request for TPA 
renewal. I look forward to your report showing how you will use 
it to negotiate agreements that are consistent with 
congressional objectives and good for America as you have set 
out to do, Mr. Ambassador.
    I am pleased with your progress to modernize NAFTA, the 
largest and most successful trading relationship in the world. 
U.S. Trade Representatives' office and you, Ambassador, your 
team have worked tirelessly to achieve bold and ambitious 
standards. I am hopeful we will be able to vote on and pass a 
new modern NAFTA for America by year end.
    That said, the road ahead isn't easy. Congress wants strong 
protections for intellectual property, increased market access 
for our dairy farmers and an end to Canada and Mexico's harshly 
restrictive customs barriers, such as unreasonably low de 
minimis levels. We need workable solutions on rules of origin 
and procurement that recognize how Americans benefit from 
global supply chains, otherwise we lose out to China. I also 
caution that any agreement without a binding dispute 
settlement, including investor state dispute settlement, won't 
find sufficient support in Congress. Congress explicitly set 
out this requirement in TPA knowing it is the only way to hold 
trading partners accountable to make sure that strong agreement 
you negotiate, Mr. Ambassador, our trading partners will be 
held accountable.
    America must also lead on China. China's chronic oversupply 
in steel and aluminum has put many Americans out of work and 
companies out of business. It is a blatant theft of our 
company's technology and intellectual property, and it can't be 
tolerated. I believe strong enforcement is needed, and I 
appreciate President Trump's leadership on holding China 
accountable. But we can't do this alone. If we hurt our allies 
America will ultimately lose.
    Our challenge--every President's challenge is to target 
remedies to address true national security risk to eliminate 
unfair trade and take into account our entire economy. The 
wrong remedy puts significant American jobs at risk. We have to 
make sure we don't punish American families and workers for 
China's misbehaviors. Oftentimes indiscriminate tariffs are not 
the right approach, and before the Administration puts those in 
place it also should provide a strong opportunity for public 
comments so the effect of these tariffs on our economy can be 
properly assessed. It is not about backing down, it is about 
hitting the target, which is China and its bad practices, not 
our allies or other U.S. sectors.
    And finally, I want to be clear, the Constitution vests 
Congress with the authority of the U.S. trade policy agenda. 
The relationship between Congress and executive branch is a 
true partnership in implementing that agenda. We want to 
partner with you, Mr. Ambassador, to ensure that America 
continues to choose the freedom to trade. America must continue 
to lead the world and to find what it means to have an open and 
free economy our jobs and our values depend upon it.
    Again, Ambassador Lighthizer, thank you so much for being 
here today on a snow day. We look forward to your testimony.
    And I now yield to the distinguished Ranking Member, Mr. 
Neal, for the purposes of his opening statement.
    Mr. NEAL. Thank you, Mr. Chairman, and for those of us from 
New England, we don't even consider this a snow day.
    Thank you, Mr. Ambassador, and I want to welcome you on 
behalf of Committee Democrats. Today's hearing is an 
opportunity for us to hear from you and you to hear from us 
about all of the activity that is happening on the trade front.
    Over the past year we have seen a great deal of activity 
and commentary from the Administration. We are currently in the 
process of renegotiating NAFTA to update it, and more 
importantly, to rebalance it. You are also renegotiating the 
U.S.-Korea Free Trade Agreement to improve it and to ensure 
that it delivers more reciprocal outcomes for U.S. workers, 
exporters, and businesses.
    The Administration has recently decided to impose tariffs 
on steel and aluminum imports under Section 232 and is 
currently in the process of deciding on country exemptions and 
product exclusions. As we are reading in news reports in a 
matter of days the Administration will announce its findings in 
the Section 301 investigation into Chinese intellectual 
property abuses and may also be prepared to impose substantial 
tariffs on imports from China.
    The President certainly has tapped into raw feelings in 
some important communities about our economy and trade 
policies. We have seen in the past months that this 
Administration and you personally, Mr. Ambassador, have not 
been shy about challenging the status quo.
    For many of us we have taken notice of the promises that 
the Administration has made to improve U.S. trade policy and to 
make it work for all Americans. Many of us in the past have 
been skeptical about the promises that have been made for 
better enforcement because oftentimes they are big promises, 
and we must say we have heard them before. But we have seen 
evidence of your commitment. For example, we hear that when you 
say that your task is not just to renegotiate NAFTA but to 
update it and to fundamentally restructure it to fix important 
flaws of the original agreement, flaws that prevented Members 
of Congress like me from supporting it originally.
    In the tariffs on steel and aluminum imports we recognize 
the intention of providing much needed relief to industries and 
workers that have called for action for a very long time. But 
we also have a lot of questions, and we are watching closely to 
determine whether the promises the Administration has made will 
be delivered upon, whether that is in NAFTA, the 232 tariffs, 
the Korean agreement, or China's 301 investigation.
    Finally in the bigger picture, I think it should be clear 
to all of us that some of the greatest challenges facing our 
economy and our values are being posed by countries that rely 
heavily on state intervention and do not operate, despite what 
they say on market-based principles. We should all be on the 
same team in talking about these challenges. In fact, if we 
want to be really effective it seems to me that it will make a 
good deal of sense that we should build upon what already has 
been happening between Democrats and Republicans as we address 
many of these challenges.
    I look forward to hearing from you today about your vision 
and plan for delivering this Administration's promises on trade 
about how we take on global competitive challenges effectively 
and how the Administration partners with Congress.
    Thank you, Mr. Chairman.
    Chairman BRADY. Thank you, Mr. Neal.
    Today's sole witness is Ambassador Robert Lighthizer, U.S. 
Trade Representative. The Committee, Mr. Ambassador, has 
received your written statement. It will be made part of the 
formal hearing record. We have reserved 5 minutes to deliver 
your oral remarks. You may begin when you are ready, and again, 
welcome.

STATEMENT OF HONORABLE ROBERT E. LIGHTHIZER, AMBASSADOR, UNITED 
                  STATES TRADE REPRESENTATIVE

    Ambassador LIGHTHIZER. Thank you very much, Mr. Chairman 
and Ranking Member Neal, and Members of the Committee. I'm 
pleased to be here today.
    We at USTR greatly appreciate the expertise of the Members 
of this Committee. We're grateful for all the time you give us 
in working up truly bipartisan trade policy, the efforts you've 
helped us with on NAFTA and the many issues we face.
    Before I continue with my statement let me just say since I 
generally when I come here complain about the fact that I have 
no deputies I, in fact, have deputies now. So I thought it 
would be appropriate since they're all going to be senior 
members I believe but members of your staffs that I probably 
ought to at least have you know who's working for you now 
besides me.
    Jeffrey Gerrish, maybe if you would stand up, Jeff, is our 
deputy for Europe, the Middle East, and Asia. C.J. Mahoney is 
our deputy for Africa, China, the western hemisphere, and he's 
also going to do investment and services. And he will be our 
transparency officer. You'll recall that we selected an 
appointed official as our transparency officer. So those are 
the two people that I wanted you to focus on, if you would, 
since they're brand new.
    First I would like to draw the Committee's attention to the 
fact that this year the trade deficit in goods and services 
rose to $565 billion and in goods alone it was $811 billion. Of 
course these numbers there are lots of causes for these 
numbers, but the President believes and I also agree that 
longstanding trade deficits to some extent reflect market 
distortions and that they're having a negative effect on U.S. 
workers and businesses.
    We also, of course, have a massive trade deficit with China 
which we ought to speak about at some point of $375 billion so 
the numbers essentially got worse last year. I know that 
Members have a variety of views on these figures, but the 
President believes that they raise significant concerns. They 
indicate that sometimes the global rules of trade make it 
harder for U.S. companies to compete and specifically to 
export. Trade deficit also indicate that the United States--
that in the United States the cost of globalization are falling 
more heavily on blue-collar workers, and this is something that 
is bad for the economy and bad for the society. Finally, they 
tend to undermine the support for the global trading system, so 
trade deficits are a problem.
    Quickly I would outline the President's trade agenda. 
First, we at USTR will support the President's national 
security strategy. If you haven't looked at that I would 
recommend it to you. That means that our trade policy will help 
to build a stronger America, preserve our national sovereignty, 
respond to hostile economic competitors, recognize the 
importance of technology and seek opportunities to work with 
other countries that share our goals.
    Second, for U.S. companies and workers to be competitive in 
overseas markets we need a strong and robust economy at home, 
and I commend the Committee for the work they did on the tax 
cut bill.
    Third, we are negotiating trade deals that will work for 
all Americans. As Members of this Committee well know, the 
President directed us to seek significant changes to NAFTA. We 
have already had seven rounds with our partners in Canada and 
Mexico, and I believe that we've made a great deal of progress. 
We've also begun discussions, as most of you know, with South 
Korea on updating KORUS. Now that we have a full team of 
deputies, we intend to aggressively pursue other potential free 
trade agreements. We have a trade working group with the United 
Kingdom. We have told Japan that we're interesting in having a 
free trade agreement with them at the appropriate time. We are 
prepared to explore the possible countries in Africa and South 
Asia who might be appropriate for us to enter into free trade 
agreements, and as you said, Mr. Chairman, the President has 
asked for the extension of trade promotion authority to 
accomplish this.
    Fourth, we are enforcing our trade laws. The President 
indicated he would use all available trade laws to defend U.S. 
workers, farmers, and ranchers against unfair trade, and he is, 
in fact, doing that.
    Finally, we seek to reform the multilateral trading system. 
For too long the WTO has failed to promote trade 
liberalization. Too many WTO members view it as a litigation 
forum and not as a negotiation forum. In short, USTR under the 
direction of President Trump is seeking to build a better, 
fairer system of global trade that will lead to higher 
standards for all Americans.
    Thank you, and I look forward to taking your questions, Mr. 
Chairman.
    [The prepared statement of Ambassador Lighthizer follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 
    Chairman BRADY. Thank you, Mr. Ambassador, and thank you 
for introducing your chief negotiators. Mr. Neal and I did send 
a letter to the Senate after your last testimony discussion 
with us urging the Senate to move, so we are pleased to in a 
bipartisan----
    Ambassador LIGHTHIZER. Let me just say that I view that as 
unprecedented and extremely helpful, so I am very grateful to 
the Committee for intervening in that matter.
    Chairman BRADY. You need a full team. USTR is a very small 
and nimble agency. It needs everyone on board at this critical 
moment. So congratulations on that.
    So I am convinced NAFTA done right can create incredible 
job growth and paycheck growth for America, our farmers, our 
workers, our local businesses. I think a modern NAFTA is our 
number one economic priority this year, and I believe not only 
will it grow jobs in America but when combined with our trading 
partners can make our American businesses and farmers more 
competitive as China, Europe, and the rest of the world. I want 
to ask you a question about that in a moment.
    But first let's start with the steel and aluminum tariffs. 
We strongly support President Trump's efforts to target 
unfairly traded steel and aluminum, but as you know we have 
made it clear it is important that we allow fairly traded steel 
and aluminum to move forward. It is critical for nearly every 
economic sector in America.
    In the President's determination was included an exemption 
process for countries to negotiate with you, Mr. Ambassador, 
and the President directly in order to address transshipment 
issues, multinational efforts against China's unfair trade 
practices, and strengthening America's national security 
footprint. Can you give us an update on the exemption process?
    Ambassador LIGHTHIZER. Thank you, Mr. Chairman. As you say, 
the President did set in force a process that would allow 
products to get out in specific circumstances, and that is 
something that's being handled by the Department of Commerce. 
And then USTR working with all the appropriate agencies 
including the Department of Commerce is working on this 
question of country exemptions. So initially the NAFTA 
countries are out of the 232, subject to certain conditions and 
subject to a successful NAFTA negotiation, so that's the first 
part of it.
    We have a similar circumstance with respect to Korea 
because we're in the process of renegotiating KORUS. I guess I 
have to be careful because we're not using TPA, I won't say 
renegotiating but refurbishing, perhaps, KORUS, but we're 
talking about the Koreans about KORUS.
    There have been other countries that have come up and that 
I believe we are in the process of talking to now, Australia, 
Argentina and the EU I would put in those categories. There are 
a couple of other--there have been a number who have asked--a 
great number as you can imagine. Another one that we will I 
think soon begin talking to is Brazil, but there are a number 
of countries that have come forward and they're in various 
levels of the process. The kinds of things we have talked 
about--well, maybe I will let it go at that, Mr. Chairman, and 
then follow up on the criteria later if you----
    Chairman BRADY. Great. Thank you. What is the timeframe for 
those discussions and ultimate decisions roughly?
    Ambassador LIGHTHIZER. I believe that countries will get 
out as we come to agreement that some countries will be in a 
position where the duties will not apply to them during the 
course of the negotiation just so that you don't have--for 
example, Canada and Mexico but others, so that you don't have a 
situation where you have the status quo, 25 percent tariff and 
then they get out and there's this kind of bump and it changes 
real commercial relationships.
    So but our hope is that by the end of April we have this 
part of the process resolved. Having said that, the President 
has the authority at any time during the course of the program 
to let people out if he thinks it's in the national economic 
interest of the United States.
    Chairman BRADY. And those discussions are ongoing?
    Ambassador LIGHTHIZER. Yes, sir they are ongoing.
    Chairman BRADY. Thank you. So let me turn to NAFTA for a 
final question. You know, I am confident you and your team are 
going to negotiate a progrowth NAFTA that makes America 
stronger economically. To do that and to maximize the economic 
growth from our now one of the most competitive tax codes in 
the world to maximize on that we need more customers, and many 
of those customers live outside the United States. Many of them 
are in Mexico and Canada and when we compete and win on a level 
playing field we grow American jobs here, but to do that we 
oftentimes have to invest in those home countries to compete 
and win against China, Europe and the rest of the world.
    But if that investment in those countries is to benefit 
America, our investors have to receive fair treatment from 
other governments, and many countries don't provide basic, 
substantive, or procedural protections for American businesses. 
That means American investors have to rely on the investor-
state dispute settlement process to ensure that they are 
treated fairly and they aren't discriminated against in these 
other countries, that the rule of law, the property and 
investment is protected as it is in America and without ISDS 
Americans' property is left unprotected against discrimination, 
foreign seizure, regulatory abuses and other forms of unfair 
action.
    This issue is basically a question, when other countries 
treat American investment unfairly who has their back? The 
answer should be America has their back. I am deeply concerned 
about reports Mexico and Canada have begun negotiating 
bilateral ISDS provisions without us. Because USTR has said it 
doesn't want to participate in that. Mr. Schweikert from 
Arizona has wrote a letter that many of us have signed now 
signed by 103 Republicans affirming that inclusion of a strong 
ISDS is essential in the NAFTA agreement.
    Mr. Ambassador, we have had many discussions about that. 
This is a key part of passing the strong NAFTA agreement that 
we are convinced you will negotiate well for us, so how do you 
square USTR's current proposal against the congressional 
objectives that are in law and that 103 of us have as of today 
said are crucial for passage of this agreement?
    Ambassador LIGHTHIZER. Well, thank you, Mr. Chairman. Yes, 
I'm aware that there is some controversy surrounding ISDS.
    Chairman BRADY. You picked up on that?
    Ambassador LIGHTHIZER. Yes, I have picked up on that. I 
would say this about it, first of all, that whatever happens on 
ISDS the kinds of issues that Members are concerned about in 
terms of U.S. investment overseas will be able to be handled 
within the context of what we call Chapter 20 or the State-to-
State dispute settlement. So it isn't like we will be in a 
position where there will be no recourse. So that is the first 
thing I would say.
    The second thing I would say that we have proposed an opt-
in-opt-out-proposal. We are skeptical about ISDS for a variety 
of reasons, which I would like to go into if I have a second to 
do it.
    Number one, on the U.S. side there are questions of 
sovereignty. Why should a foreign national be able to come in 
and not have the rights of Americans in the American court 
system but have more rights than Americans have in the American 
court system? It doesn't strike me--it strikes me as something 
that's at least we ought to at least be skeptical of and 
analyze.
    So a U.S. person goes into a court system, goes through the 
system, and they're stuck with what they get. A foreign 
national can do that and then at the end of the day say I want 
three guys in London to say we are going to overrule the entire 
U.S. system. So on the inward bound it strikes me as a question 
of sovereignty, and I view myself as a conservative and a 
sovereigntist so this is troubling in that respect.
    On the outgoing side there are many people who believe that 
in some circumstances, and I can discuss the varieties of them, 
in some circumstances it's more of an outsourcing issue. So 
what is it? It's a situation where somebody says I want to move 
a plant from Texas and I want to put it in Mexico, and when I 
go down there I don't want to take the political risk that AMLO 
is going to win in Mexico and change my bargain, so I want the 
U.S. Government essentially to buy political risk insurance for 
me.
    Our view tends to be that if you want to move a plant from 
the United States to Mexico, and the economics suggest that, 
that you should go with the economics and it's too bad, and 
your responsibility as a Congress is to make the United States 
more competitive so that that isn't a problem. But if you are 
going there because we are underwriting the investment, we are 
putting our finger on the scale, we're encouraging you to move 
your plant down there that is not the job in my opinion at 
least of the United States Government.
    I would say, also, this is an area that's not without 
controversy. The National Association of States Attorney 
General think this is a mistake. The Cato Institute, an issue 
which I don't always agree with, all indications, they think 
ISDS is something that we shouldn't have.
    The National Association of State Legislatures, which is 
controlled by Republicans is on record as against ISDS. So 
there are a whole variety of issues. I can go on and on and on. 
There are people who respond, well, we haven't lost cases in 
the United States in our position, and while, in fact, that is 
the case we have come close to losing some, but more 
importantly, we've had situations where real regulation which 
should be in place which is bipartisan and everybody's interest 
has not been put in place because of fears of ISDS.
    So I think it is something we have to think about very 
carefully. Our view was that rather than have this mandatory 
ISDS provision, which we think is a problem in terms of our 
sovereignty in the United States, encourages outsourcing and 
losing jobs in the United States, and by the way, lowering 
standards in a variety of places, that we should be very 
careful before we put something like that into play.
    So you say what are the alternatives for these companies? 
The first alternative, as I say, is State-to-State dispute 
settlement. The second alternative is if you go to any one of 
these companies and ask them why do you need this, why don't 
you put in place an arbitration provision in your contract? 
They'll all say, well, we can do that, and indeed, they did do 
it. They did it before we had ISDS. And in a country like 
Mexico they subscribe to all the conventions, and they have to 
enforce those.
    If they put that contract, an arbitration provision in 
their contract, these things are then resolved in a similar 
manner but without the United States ceding sovereignty in 
order to encourage people to outsource jobs. It's just not a 
good trade in my opinion. I realize, however, that it is 
controversial provision and that my view is in the minority in 
some very intelligent caucuses.
    Chairman BRADY. Mr. Ambassador, thank you for that defense. 
A couple quick thoughts before I turn to Mr. Neal.
    Secondly, there is no threat to sovereignty. Foreign 
investors have no more rights than American investors because 
American--in our country you have the greatest standards and 
protections for property rights, investment rights in the 
world, bar none.
    Secondly, your client is Congress in speaking out for our 
ag community that wants you to have America's back when they 
have to invest in other countries to win customers, energy, 
manufacturing, technology services, every key industry in 
America that has to compete against China and the rest of the 
world and other countries is saying we need to have their back 
when they make their investments.
    And so you are right there is a disagreement there. We are 
going to continue to work together with you, Mr. Ambassador, to 
get to a good place and make sure we are keeping this in the 
trade agreement and we have the backs of our American 
investors.
    Mr. Neal.
    Ambassador LIGHTHIZER. Just briefly the strongest argument 
in favor of ISDS, Mr. Chairman, is that you're in favor of it. 
That is the strongest argument in my opinion.
    Chairman BRADY. Some would disagree with that, Mr. 
Ambassador.
    So Mr. Neal, you are recognized for your questions.
    Mr. NEAL. Thank you, Mr. Chairman, and thank you, Mr. 
Ambassador. In Massachusetts and in New England trade and 
energy with Canada is critical to powering our engines of 
innovation, manufacturing and indeed people's lives. In 
renegotiating NAFTA to ensure the reliable and preferential 
terms of that trade is a priority certainly for communities 
across New England.
    In trade I understand that there are some issues with 
verifying origin right now that are having the effect of 
burdening trade and making power more expensive for people 
across New England. Is this something that is on the radar 
screen and are you willing to prioritize the resolution of 
these burdens as part of the renegotiation?
    Ambassador LIGHTHIZER. Yes, Mr. Neal, they are, and free 
flow of energy is something that I've testified about before, 
and I know--I believe that the Committee is universally in 
agreement on that provision, and we certainly support it, and 
we're aware of your situation, and it is something that we're 
concerned about.
    Mr. NEAL. Thank you. China. As I mentioned earlier we are 
reading about substantial tariffs on a wide variety of consumer 
product imports from China that apparently will be announced 
before the week is over. Can you talk about the goals of the 
Administration and what you are trying to achieve through 
Section 301, and do the goals in China's abusive practices 
correspond to the types of products that you are thinking of 
subjecting to tariffs.
    Whether it is an electronics or toys iconic companies in 
many of our districts and consumers that rely upon them and 
enjoy these goods are profoundly concerned that some of these 
penalties will end up penalizing them as well. And can you talk 
about from your perspective what makes sense for our economy or 
are we simply proposing to discipline China?
    Ambassador LIGHTHIZER. That is a great question and one 
that is----
    Chairman BRADY. Mr. Ambassador, could you touch that 
microphone?
    Ambassador LIGHTHIZER. I am sorry. I am sorry. That is a 
great question, and one that is quite topical as you suggest. 
The President is going to make a decision, I believe, in the 
very near future on this issue of this 301, which we started in 
August and which we have--has been very thoroughly examined at 
USTR. We've studied it. We've had hearings. We've spent 
thousands of hours reading tens of thousands of pages in 
Chinese. We have studied with American companies.
    And our view is that--and once again there is no decision 
until the President makes it, but our review is that we have a 
very serious problem of losing our intellectual property, which 
is really the biggest single advantage of the American economy 
in my opinion is our intellectual property and our ability to 
generate new intellectual property. We are losing that to China 
in ways that are not reflective of the underlying economics.
    So it's an enormously important issue. I'm happy to talk 
about it at some length. We think it is perhaps the most 
important thing that will have been done in a long time in 
terms of rebalancing trade and trade specifically with China.
    This problem of intellectual property with China has been 
something that has been going on for a long, long time. If you 
look back in George Herbert Walker's presidency in 1992--1991 
there was a 301 on the Chinese basically not protecting 
intellectual property in China and taking the technology--1991. 
We had another one in the Clinton administration, both of which 
really didn't amount to much.
    We had a third one in the Obama administration where there 
was cybertheft in an agreement. Of course none of this changed 
any of the activity in my judgment. So the question becomes, 
one, do you think there's a problem that strikes me as without 
question clear that there is. Do you thoroughly study it, which 
I believe we did. If there is a problem if it's so important to 
the economy, what are the likely remedies that you would have? 
The remedies in my judgment at least would be, one, doing 
something on the tariff front, and, two, doing something on the 
investment front and then perhaps other things because these 
are the crucial areas where it comes together.
    In terms of what you would do on the--on the tariff front, 
which was your specific question, the USTR has the power, at 
the direction of the President, to raise tariffs in these 
circumstances. The way we would approach it if the President 
should make this decision is, one, to study it. We have an 
algorithm which will decide the extent to which there is a 
problem among things that are quantifiable because it is a huge 
number of things that are not quantifiable but are worth 
hundreds of billions, but you take what you believe is 
quantifiable and you come up with a number. Then you apply 
tariffs to that number.
    The process that you would use presumably would be, one, 
you would develop an algorithm that will put maximum pressure 
on China, minimum pressure on U.S. consumers and then there are 
certain products which are clearly high tech products, which 
are in the focus point of this. And the combination of those 
two would be the kinds of things that you would decide to put 
tariffs on if you were going to do it, and then you would take 
additional action.
    Now, I can go through at some detail if the Committee wants 
to do it now or at another time, I know this is a matter of 
great interest to the Committee, and I am happy to talk about 
it now or just beyond that or just go on and wait for other 
Members to ask questions.
    Mr. NEAL. Thank you, Mr. Ambassador.
    Chairman BRADY. Thank you, Mr. Neal. Mr. Johnson, you are 
recognized.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    Ambassador, welcome. As you know, I flew F-86s in Korea and 
had my share of dog flights over there, and that is a dangerous 
area of the world, and one of our allies in South Korea needs 
to know that we have their back. As you may know, I voted for 
the U.S.-South Korea Free Trade Agreement back in 2011 and 
since that time hundreds of thousands of jobs have been created 
right here in America from the trade agreement. In fact, over 
40,000 jobs in Texas are directly tied to that agreement.
    By the way, according to your own agency, exports of goods 
have increased as a result of the agreement. So as the 
President looks to renegotiate this trade agreement I would 
like to express my support for doing it in a way that 
strengthens the alliance with South Korea.
    Mr. Ambassador, can you give me an update on the South 
Korea negotiations and when will they wrap up, do you think?
    Ambassador LIGHTHIZER. Thank you very much.
    So we are in the process of having discussions, but the 
President announced his desire to update and rebalance to the 
extent we cannot using TPA, so it's a more limited kind of a 
negotiation. Several months ago we spent the first several 
months with the Koreans going through their process to get a 
mandate from their own legislature to discuss it. We've now had 
several rounds with the Korean minister.
    Minister Kim is in town right now. I think we are down to 
the last few issues. I'm hopeful that we will be able to come 
to some agreement that will make the Committee happy, and in 
addition to KORUS of course we're also talking about steel and 
aluminum because it has now come up, and in the opinion of many 
people Korea is a particular problem in the area of steel 
primarily. But we're trying to work our way through all of 
those things.
    I'm hopeful that we can make headway on it, and it 
certainly is my objective would be to get a good agreement--let 
me say to have amendments to the agreement that will satisfy 
this Committee, and I think we're moving in that direction 
right now, Congressman.
    Mr. JOHNSON. Thank you, sir. I would like to take my 
remaining time to highlight the importance of NAFTA for Texas 
and the Nation as whole. As you know, over a million jobs in 
Texas are supported by trade with Canada and Mexico, and 
nationwide this trade supports nearly 14 million American jobs. 
That is a lot of American workers, and while I support the 
efforts to update NAFTA I am concerned by the proposed sunset 
clause. I don't think that is a good policy necessarily. 
Businesses need certainty.
    Can you tell me what the status of the proposed NAFTA 
sunset clause is and what are you trying to accomplish with it?
    Ambassador LIGHTHIZER. Absolutely, Congressman. So the way 
the sunset clause works is that at the end of 5 years the 
President would make a decision as to whether or not the 
agreement should continue. It would not require congressional 
action. It would not be a difficult decision. The thought 
behind it is, number one, we have a number of Members in this 
Committee particularly on the Republican side that believe we 
ought to be sunsetting things, so I would have thought this 
would have been something that would be consistent with that.
    The idea is if it's such a good agreement then we'll 
naturally roll it over. If it's not a good agreement, we won't. 
So after a period of time--the idea is that after a period of 
time we ought to be sitting down and reviewing what happens to 
these agreements. There is nothing about trade in my opinion 
that makes it above all other logic in the way we approach a 
legislation.
    So the basic idea of an agreement like this is that you 
have baseline WTO trade, and then we're giving someone a 
benefit, a benefit versus the rest of the world, and they're 
giving us approximately similar benefits, and that's how you 
create an FTA. If you find yourself in a position at some 
point, and I would suggest 5 years is a reasonable period of 
time, where the--what we gave and what we got is so out of 
balance it is reasonable to suggest that we ought to try to 
rebalance it. Things change, the economy changes.
    Indeed, I would think that NAFTA is a classy example of why 
we have this problem. We have a 24-year--we have a 24-year 
agreement and that agreement, the whole economy has changed. 
We've gotten way out of whack in terms of what our deficits 
are. It's having a peculiar effect on various industries, and 
it's reasonable to sit back and take a look at it. But if the 
agreement is as business people tell me going to be so 
spectacular it strikes me that the President looking at it 
after 5 years won't be a particularly large hurdle, but it's a 
reasonable thing to expect people to do, and that is the nature 
of it.
    Chairman BRADY. Mr. Ambassador, I apologize, time has 
expired. We will be able to discuss I think some of this 
further as we go through. Mr. Johnson, thank you.
    Mr. Levin, you are recognized.
    Mr. LEVIN. Ambassador, welcome. The two major trade issues 
NAFTA and steel have a major common attribute. The clash over 
both of them has been decades in the making.
    After the failure to act by the U.S. Government and to be 
acknowledged as a problem by traditional trade theorists. 
Outsourcing in manufacturing to Mexico increased dramatically 
lured by Mexico's industrial policy of cheap labor. During much 
of this same period, as you know so well, China undertook a 
massive increase in steel production often using state-owned 
enterprises reaching 10 times that of U.S. production in 
contrast to their equal amounts of production nearly 20 years 
earlier.
    The impact in the industrial sector from these two 
developments was loss of middle class jobs and suppression of 
wages. In both cases the response was the lack of any 
coordinated action in this country either handcuffed by 
allegiance to theories ill-equipped for the realities of 
rapidly advancing globalization by a willingness to settle for 
talk in conference after conference or by putting profits over 
the personal impact on working families. This created a vacuum. 
Like any problems left to foster it has made it more difficult 
to remedy them effectively and responsively. They must be.
    As to steal and aluminum I suggest we all look at a 
recommendation in the recent remarks of AFL-CIO president Rich 
Trumka where he said, and I quote, These tariffs will be most 
effective if used strategically targeting China and other 
countries that are the source of the problem.
    In fact, instead of retaliating against the United States 
as some have threatened our allies should work together with us 
to address this global glut that threatens our economic and 
national security.
    As to NAFTA there cannot be a successful renegotiation, Mr. 
Ambassador, which I believe most Democrats want unless the 
central problem as we have discussed is fixed. Mexico must tear 
down its structures of an industrial policy, built on 
suppressing its workers that impacts American jobs and wages. 
Instead there is evidence that in its Congress Mexico is now 
moving backward.
    Mexican workers today often make less in real dollar terms 
than they did 25 years ago and less on the average now than 
those in China. I recently met two workers in Mexico from the 
auto parts industry who said their take-home pay was 75 cents 
an hour in one case and $1.25 in the other. The President has 
spoken about this suppression; now he must deliver.
    Mr. Ambassador, we have talked about this and are you now 
addressing this problem? Steel we will talk about tomorrow with 
the Commerce Secretary, though you are an expert. In terms of 
Mexico and their industrial policy, their endless so-called 
protection agreements, where are the discussions?
    Ambassador LIGHTHIZER. Well, thank you, Congressman Levin. 
As you know, every time I've testified here I've taken the 
position that wage increases in Mexico are in the U.S. 
interests. It's better for our own competition. It also creates 
customers for us, so it's something that we have as a priority.
    I think that in the Mexican political system there are a 
number of people who agree completely with that process. So I 
mean with that thought. We are in the process of having these 
negotiations really even as of today.
    My focus has been on trying to get to a position where 
Mexican workers actually vote on--have real secret ballot votes 
on their collective bargaining agreements, and if Mexican 
workers have real votes and they decide for bad contracts 
that's none of our business, but it's reasonable for American 
workers to expect that there would be a process whereby Mexican 
workers have this.
    Mr. LEVIN. Good. Let me just say on ISDS, and I will finish 
with this and there will be discussion, it is an important 
issue, and when we raised it in TPP Republicans just sat doing 
nothing.
    But it isn't the basic problem in terms of Mexico. They are 
using moneys to lure industry, not cracking down on American 
investment.
    Chairman BRADY. The gentleman's time has expired.
    Mr. Nunes, you are recognized.
    Mr. NUNES. Thank you, Mr. Chairman.
    Ambassador, welcome and congratulations on finally getting 
your deputies in place. I want to go first into another region 
of the world and that is Asia. You have talked a little bit 
about what you may do in the coming weeks, and I can assure you 
that we have tremendous concerns about investment that is being 
made here in the United States buying up companies, stealing 
our intellectual property. A lot of that is not actually being 
done through trade it is just the way they make investments 
into the United States.
    And on the Intelligence Committee we continue to 
investigate that and we have legislation pending in the 
Congress now on CFIUS reforms as it relates to some of these 
concerns we have with what China is doing here in the United 
States.
    I would also submit that I heard you--I think you have 
talked a little bit about the Philippines, possibly Vietnam, 
perhaps another direction that we can go in the coming weeks 
and months would be to look at is it possible to do bilateral 
agreements with the Philippines, Vietnam, fixing the South 
Korean agreement possibly Japan, and I don't know if you can 
comment on any of those negotiations because I know you are in 
the middle of them, but in terms of planning for the 
Philippines and Vietnam I would be very interested in.
    Ambassador LIGHTHIZER. Thank you, Congressman.
    First of all, the issue of Chinese investment in the United 
States is as I say in the 301 is something that we're 
completely focused on. In my judgment this is going to help to 
define whether or not we have all succeeded or failed in terms 
of what we were sent here to do, and any Members who are not on 
the Intelligence Committee I hope they access themselves of the 
information the Intelligence Committee has because I think in 
making these judgments it's really important that you know the 
basic facts.
    Having said that, now that I have a deputy I've spoken 
generally about the idea of having a bilateral agreement or an 
FTA with some of these people and that in that part of the 
world, in the Pacific part of the world. Some of the TPP 
countries but also some others who weren't in the TPP like the 
Philippines.
    So Ambassador Gerrish, my deputy, is going to undertake to 
do a thorough study of that both within the Administration, but 
as importantly within Congress to find out where the targets 
are. We have spoken and thought ourselves about the Philippines 
as a reasonable first step in that direction. It's extremely 
important that we have a positive agenda. It's extremely 
important that we show that part of the world that we're very 
interested in them.
    Besides the Philippines, which is kind of a smaller kind of 
a deal generally, smaller economy, you mentioned Vietnam, 
Vietnam is one that there's been a number of Members and people 
in the Administration that also thinks we ought to be moving 
there. Each of these has their own kind of complications, of 
course.
    Japan we have indicated that we are interested in at the 
appropriate time having an FTA with Japan. Right now I believe 
is not that time. Japan is in the process of having the TPP 
become implemented, and it was just signed on the 8th of this 
month, so there is kind of a process there, but they are very 
much aware that we think having a closer economic relationship 
with them is in our interest and is in their interest.
    Mr. NUNES. Well, Ambassador, thank you for that, and I 
appreciate that and I would be willing to work with you on any 
of the countries in Asia that you would be interested in making 
bilateral agreements or beginning the discussions at least.
    Let me switch quickly to NAFTA. The NAFTA renegotiations, 
and then the Chairman mentioned in his opening statement but 
for a long time Canada has been getting away with murder in 
their dairy industry. It is causing tremendous problems for 
farmers here in the United States. They have a very 
protectionist program, have for a long time. They are dumping 
in product into this country and if anything it is one of the 
reasons why you are trying to update NAFTA.
    And I don't know if you can update us on the process and 
where we are at in the negotiations on specifically on dairy, 
but we would be interested to hear what you have to say.
    Ambassador LIGHTHIZER. Well, this is something that we have 
focused on. It was one of our objectives, their dairy program 
but also their agriculture programs and other areas, eggs and 
poultry is another one where they have what you would consider 
to be very not market oriented, very protectionist approaches 
on these things.
    It's difficult for them to change their policies in these 
areas because they're sensitive just like they are in every 
single district in America. Having said that, it's a very high 
priority to make changes in the Canadian dairy programs so that 
we have the kind of access that U.S. farmers did have and even 
greater access.
    So it's a high priority. I am hopeful that when we put the 
final deal together it's something that we make real headway 
on.
    Mr. NUNES. Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman.
    Chairman BRADY. Thank you, Mr. Nunes.
    Mr. Doggett, you are recognized.
    Mr. DOGGETT. Thank you, Mr. Chairman, and thank you, 
Ambassador.
    NAFTA is very important in Texas. It was signed in the 
district that I currently represent in San Antonio, and I 
sincerely appreciate your efforts to significantly improve it 
learning from the experience of the last two decades. Though I 
personally continue to support more trade through a NAFTA and 
around the world, one of the major reasons that I have voted 
against a number of previous trade agreements is the way they 
have been subverted by various special interests to serve their 
own selfish agenda to the detriment of our public health.
    Big tobacco, Big Pharma have been examples of that in the 
past, and I am very troubled by this morning's New York Times 
front page story that advises that your office is currently 
involved in NAFTA negotiations to serve the obesity lobby. You 
are aware, Ambassador, that the Center for Disease Control 
reports that almost a third of American youth between the ages 
of 17 and 24 are too overweight to serve in our military, that 
the defense department reports that one in 13 American 
servicemembers is clinically obese.
    Now, I know there is no panacea for this problem, and I 
don't endorse every action taken by a foreign government, but I 
think that it is wrong to limit the power of American States 
and local governments, as well as foreign governments to 
address this challenge.
    I want to draw your attention specifically to that Times 
article in which it is said, ``The Trump administration's 
proposal and the corporate pressure behind it hold the 
potential to handcuff public health interests for the decades. 
The American provision seeks to prevent any warning symbols, 
shape, or color that,'' and this is apparently drawn from the 
documents you are advancing, ``inappropriately denotes that a 
hazard exists from consumption of the food or nonalcoholic 
beverages.''
    Is it correct that your office is urging adoption of that 
provision as a part of the NAFTA renegotiation?
    Ambassador LIGHTHIZER. First of all, I would like to put my 
office on the record as being against obesity.
    Mr. DOGGETT. I am glad to hear it. The question is whether 
you are against things that prevent us addressing that problem, 
and if you are supporting this provision you are certainly not.
    Ambassador LIGHTHIZER. Well, I guess I would say, 
Congressman, that for us it is slightly more nuanced than that.
    Mr. DOGGETT. Well, just answer. First, is this a provision 
that is being advanced by the American government?
    Ambassador LIGHTHIZER. The idea is--yes. The idea of 
putting limits on the ability of countries to put warning 
labels or symbols or products is something that we are 
concerned about----
    Mr. DOGGETT. So it is accurate that this provision, the 
language that I just read to you, is being advanced by our 
negotiators?
    Ambassador LIGHTHIZER. I mean, I can't comment on the exact 
language in the statute, I don't have that--I've looked in the 
article, I don't have the article in front of me, but the issue 
is with one that we are concerned about. The other--your point 
is an excellent one, and I agree with it.
    On the other side of it there are lots of examples of 
countries that are using this loophole to basically create a 
protectionist environment. So we have--that's why I say it's 
more nuanced from our point of view. We have companies that 
come in with products that literally they're on shelves with no 
wrapping on them. There is a kind of an extreme between one way 
or another. This can be used as protectionism. To the extent 
it's used as protectionism we have to be very careful of it 
that is----
    Mr. DOGGETT. We certainly do, and I will welcome any 
further written answer you might have. I want to turn to 
investor state because there is one that I applaud your answer 
to the Chairman. When he asked the question who has our back, 
the corporate lobby basically wants it to be three lawyers 
operating behind closed doors as much as possible.
    We know from the Bilcon case that corporate interests went 
around Canadian law with rights they couldn't have there, and 
they are only asking for half a billion dollars now because 
they were denied the right to expand a quarry. I hope you will 
stand firm for protection of American investors but not a 
mechanism that allows them to invade our sovereignty as you 
correctly noted and to subvert and undermine health and safety 
regulation.
    There is no reason foreigners should be given more rights 
than American citizens and American companies have, and that is 
what is happening through the investor state mechanism. You are 
right to be skeptical on it, and I hope you will continue to 
urge that position because if we don't see some genuine reform 
of the investor state mechanism, renegotiation of NAFTA will 
not have met the objectives that we have set out initially.
    Thank you, and I look forward to your further response 
about this very troubling issue on obesity.
    Ambassador LIGHTHIZER. I will do that, sir.
    Chairman BRADY. Mr. Reichert, you are recognized.
    Mr. REICHERT. Thank you, Mr. Chairman.
    Ambassador, thank you for your time today.
    Mr. DOGGETT. Mr. Chairman, may I just ask unanimous consent 
to put the Times article into the record, as well as the 
earlier stories from the Times about Mexico and Chile.
    Chairman BRADY. Without objection.
    [The submissions for the Record of Hon. Lloyd Doggett 
follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. DOGGETT. Thank you.
    I am sorry, Mr. Reichert.
    Mr. REICHERT. That is okay, Mr. Doggett.
    Ambassador, thank you for being here today, and welcome to 
Jeffrey and C.J. I look forward to working with all of you and 
your team.
    I know that you and I have a few shared priorities, 
including successfully updating NAFTA and combatting unfair 
trade practices, and just I want to continue to work with you 
to accomplish both. In doing so we should build upon our work 
done during tax reform to boost the competitiveness of American 
workers and businesses.
    Even though I am very appreciative of your, as some have 
defined, unconventional approach I still have concerns about 
several actions that have been taken by the Administration that 
I believe could undermine the good work that we have 
accomplished through the tax reform effort. To successfully 
update NAFTA our farmers and manufacturers require certainty. I 
know you are keenly aware of that and accountability. They need 
to know their investments will be protected and the agreement 
will be enforced. They need to know that they can rely on this 
agreement.
    In targeting unfair trade practices we must take a targeted 
approach and work in cooperation with our global partners. We 
cannot take actions that put our consumers, manufacturers, and 
exporters at risk.
    I am deeply troubled by the questions that remain with 
Section 232 exclusion process and the possibility of tariffs 
from Section 301 investigation. It is American manufacturers 
and consumers that will be hurt by an ineffective exclusion 
process and the placement of tariffs on imports.
    I implore you to think about my constituents, for example, 
the family in Maple Valley who will face higher prices, the 
manufacturer in Auburn who will pay more or will lose access to 
imported parts, and the apple exporter in Wenatchee who will 
suffer from retaliation.
    We must also begin to focus on opening markets. As our 
trading partners move forward without us our farmers, workers, 
and businesses fall behind. Whether it is dairy, wine, 
potatoes, wheat or tree fruit, Washington's producers will lose 
market share to their foreign competitors without new trade 
agreements.
    Trade agreements ensure Washington's businesses are treated 
fairly and can sell their high quality products around the 
world. I believe the U.S.-Korea Free Trade Agreement is an 
example of a successful agreement for America and for the State 
of Washington.
    I do agree with you, however, that Korea's implementation 
of the agreement has been disappointing and that any remaining 
issues related to Korea's implementation need to be resolved 
quickly. I am glad to see the KORUS Committee system being used 
for this purpose. Of course the downside to using the joint 
Committee is that there is less transparency surrounding these 
discussions, and maybe with Jeffrey and C.J.'s help we can lend 
some transparency to the process.
    So I recommend and would strongly suggest, Mr. Ambassador, 
that USTR publish detailed negotiating objectives in KORUS to 
signal to the public the changes that you are seeking within 
that agreement and those talks.
    Can you comment on the transparency of the process and 
maybe providing those detailed negotiating objectives? Do you 
have a timeline on that?
    Ambassador LIGHTHIZER. Well, first of all, I agree that 
KORUS is an important agreement. On the issue of transparency I 
guess I would say since we're not using TPA we don't have that 
statutory umbrella. What I've tried to do is to the extent 
possible talk to Members, and I'm happy to talk to any Members 
individually or in groups to talk about this. It's not always a 
good idea to talk openly about negotiating objectives and 
certainly negotiating tactics.
    But from the point of view of the United States we are 
troubled by implementing a whole variety of implementing 
issues. We are troubled by the speed with which some tariffs 
are going to come off on important products in the automotive 
industry but also in others. We have issues with currency. We 
have a variety of issues. I'm happy to talk to Members about 
this. In terms of publishing something it's probably unlikely 
that I am going to do it. My hope is what we will do is talk 
privately to Members and have some kind of an agreement in 
principle quickly.
    My objective is to try to do this as quickly as possible 
with as little disruption as possible, and it really is why we 
decided we are better off limiting what we were going to do, 
not go through the TPA process and overload the system and just 
try to work with Members and deal with this on a smaller level 
and a smaller way than a normal big agreement would be.
    But to the extent Members view themselves as not knowing 
what our specific objectives are I'm happy to talk to the 
Members and look forward to doing that, and my hope is this is 
a process that comes to a conclusion fairly quickly because I 
think it's having negative effects in a lot of different ways.
    Chairman BRADY. Thank you, Mr. Ambassador.
    Mr. Thompson, you are recognized.
    Mr. THOMPSON. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for being here this morning and 
taking our questions and hearing our concerns.
    Mr. Ambassador, I am pleased that you acknowledge not only 
my colleague Mr. Nunes' issue regarding dairy but also went on 
to talk about other agricultural problems: eggs and poultry.
    I want to ask you, though, about the U.S. wine exports 
because they continue to face some highly burdensome trade 
barriers in Canada. Canada's discriminatory policy in British 
Columbia, Ontario, and Quebec are restricting market access for 
American wine, and giving Canadian wine producers a real 
competitive advantage against us.
    As you know--you and I have talked about this before, USTR 
requested WTO dispute settlement consultations with Canada on 
the British Columbia matter last year, but that really hasn't 
yielded any resolve or any benefit. And since then, Australia 
has also launched its own complaint on discriminatory practices 
affecting Australian wine exports.
    In addition to that, we have another agricultural problem 
with China. That is our ongoing effort to get exported U.S. 
rice into the Chinese market. For 10 years, we have been trying 
to find some equitable resolve to that issue. We have had 
promise after promise, but still those markets haven't been 
open to us.
    So I would like to know what it is you are doing to make 
sure that U.S. wine exports are treated fairly in Canada and 
what you are doing to make sure that U.S. rice exports are 
treated fairly in China.
    Ambassador LIGHTHIZER. Thank you, Congressman.
    I would say, first of all, the wine problem is exactly as 
you say: it's just rank protectionism at the provincial level 
in Canada. And it is something that, in fact, is spreading.
    As you say, we brought a WTO case against them. WTO cases 
take time, and we're in the process of aggressively litigating 
that action.
    Having said that, we are far better off trying to resolve 
this issue in the context of a NAFTA negotiation. It's more 
likely to have a near-term solution that is satisfactory to the 
industry.
    So it is something that we are negotiating on. Our hope is, 
with respect to that, we can see improvement in the NAFTA 
talks.
    Mr. THOMPSON. Other than telling us that you are working on 
it, are there any specifics? Is there any progress that you can 
report?
    Ambassador LIGHTHIZER. Well, it's one of these issues 
that--and there are a number of them in this category--you 
won't know whether you're making progress until you get to the 
end.
    If you look at the kinds of issues, generally, it's the 
tough issues--it's IP issues, and it's agriculture issues--that 
are sort of brought together at the end of an agreement, 
because no one is going to say they are going to do anything in 
that area.
    So you go through and you make progress in 30 or 33 
chapters, and when you get to the ag one, there's just no 
progress. You talk it through, and the reason is that no one is 
going to make any concessions here, other than as part of a 
final agreement.
    Having said that, I believe we will make headway in this 
area.
    Mr. THOMPSON. How about China and the rice?
    Ambassador LIGHTHIZER. Well, on China and rice, we have two 
WTO cases, as you know, on China and rice. It's another example 
of both, on the subsidy side, but also on the market access 
side, they are not doing what they, in our judgment, are 
obligated to do. We're pursuing those, and we'll retaliate. 
We'll do whatever is required. There are limitations on the WTO 
process to solve these kinds of issues, and you are seeing it 
just heads up in the issue of all of those products.
    Mr. THOMPSON. Well, I guess it is certainly frustrating to 
have been trying to deal with this for quite some time now, and 
even more frustrating now to hear that we don't know until we 
fix it. As I point out, the China problem with the rice has 
been going on for 10 years. The wine issue has been going on 
for quite some time too. Both, in my view, are pretty obvious 
and pretty blatant violations.
    I guess I would like to hear more about what we can expect. 
And if things start to go better in your negotiations, if you 
could let us know, if you could circle back and let me know how 
that is going, I would appreciate it. But, to date, it just 
doesn't look like we are making much progress.
    Ambassador LIGHTHIZER. On the wine thing, I'm happy to talk 
to you.
    On the rice and other WTO issues, that's a difficult 
process. It's a slow difficult process, which is seriously 
flawed.
    Chairman BRADY. Thank you. Your time has expired.
    Mr. Roskam, you are recognized.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    Ambassador, just a personal word and then two questions.
    The personal word is: I appreciate the candor with which 
you approach things. My wife tells me that the older I am 
getting, the more direct I am becoming. I find your ability to 
engage us on these things really refreshing. I am not trying to 
embarrass you, but I just find it refreshing.
    Two questions. Let me give them both to you, and then if 
you could just respond, I would appreciate it.
    The first is, shifting gears on 232, and press is 
reporting--and I don't need you to comment whether this is 
true--but they are saying: Well, there is all this criterion by 
which you are evaluating these country decisions. And they are 
all rational, as far as I can tell. You know, a country's 
participation in other questions as it relates to trade and so 
forth.
    Here is my question: With Ukraine, for example, are you 
considering the strategic interest of the United States as it 
relates to changes for Ukrainian steel? Ukraine is in a 
situation under incredible pressure and incredible duress. It 
is a country that has been invaded by Russia. We have sanctions 
on Russia. You know the whole story. So is there a national 
security element to your consideration? That is question number 
one.
    Then shifting gears entirely, question number two is, as it 
relates to catfish--this is not an unfamiliar issue to you--we 
have a situation in the United States where there is double 
evaluation. USFDA has a program, and Ag has a program. It is 
pretty ridiculous. And there is a number of us that are trying 
to correct that. So my question is, can you speak to how the 
catfish issue, in particular, has an impact on the 
negotiations?
    Ambassador LIGHTHIZER. Let me say with respect to the first 
element, I've outlined--and we didn't put it on our website. We 
find that if we say something to anyone, it is in the paper. So 
it saves the issue of having to actually type things on your 
website. Everything becomes public in 5 minutes. We have 
criteria, and one of the elements, of course, is the national 
security interest of the United States. So we do have that as 
an issue.
    The final criteria is that the President makes that 
judgment. And that's a kind of a broad decision on his part. He 
defines national security in the conventional way, but also 
more broadly, as affecting U.S. economic security as part of 
national security. You will see that is a theme that runs 
through the National Security Strategy. It's run through our 
trade agenda, and it's run through the entire Administration. 
National security is defined broadly, and the United States 
can't defend its allies or itself unless it has a strong 
economy. So that's something the President has broadened.
    The issue of the Ukraine, specifically, there clearly are 
national security issues why that would be a consideration. I 
would say the likelihood at this point right now is that we're 
starting to focus more on trade and economic issues once you 
get below a threshold of national security interests. And, of 
course, it's clear that the Ukraine meets that threshold, but 
there are a lot of other issues that are probably more 
difficult for them to do it. So I guess that answers that.
    On the question of catfish, catfish is a problem in our 
trade negotiations in some areas. We do have a complicated 
regulatory process in the United States. We've had cases 
involving people critical of our system as being basically a 
protectionist system. On the other hand, we do have a situation 
where, in some other countries, there are legitimate health 
issues. So it's kind of a complicated issue. It is one that we 
are familiar with. I would be misleading if I suggested it rose 
to the level of some of these other things. But to the extent 
it does for you, then it does for us, and we're happy to work 
on it. And to the extent we can have influence on your effort 
to sort your way through this to try to clean it up, we're 
happy to have our people do it and to work with you on it.
    Chairman BRADY. Thank you.
    Mr. Larson, you are recognized.
    Mr. LARSON. Thank you, Mr. Chairman.
    And thank you, Ambassador.
    Along the same lines with respect to section 232, with 
regard to aluminum tariffs, but, perhaps, as seen through the 
eyes of people downstream who are impacted, now, I represent a 
district that hails many manufacturers--including Pratt & 
Whitney, Hamilton Standard, Sikorsky, Command, General 
Dynamics--and, throughout the State of Connecticut, precision 
manufacturers to downstream people who will be impacted and 
have grave concerns about the impending tariffs.
    One such manufacturer, Jarvis Airfoil, in my district, 
makes compressor and turbine blades for jet engines. They were 
asking me this recently about what can they expect. And here is 
the questions--and I couldn't agree more with Mr. Roskam about 
your candor and your ease of going through a number of these 
issues--but from their perspective not only is--and I 
appreciated the national security interests when you talked 
about what is the criteria for exempting countries--but what is 
the timeline for exempting countries, and what type of 
alternative arrangements are you seeking from those countries?
    And I say that in perspective of this perspective. Do you 
plan on making these decisions on all the exemptions by the 
time the tariffs go into effect, which, if I understand it 
correctly, will be Friday? And so you can imagine the 
intensified concern that creates about that large supply chain, 
not to mention, of course, the manufacturers themselves, in 
general. I am wondering if you might give us more clarity on 
that.
    Ambassador LIGHTHIZER. Yes, sir.
    First of all, these matters are a balance, in terms of the 
consumer impact and the producer impact. This is something the 
President and people in the Administration have tried to 
balance.
    In terms of the aluminum, generally, it's a pretty clear 
case that the U.S. industry is under assault and is really 
close to being completely destroyed. Ninety percent of the 
primary aluminum is coming in through imports. It's a very, 
very serious problem. That's not in any way to minimize the 
effect it is having on consumers. That is what the President 
tried to do with balance.
    In terms of the timeline, our hope is to get these things 
resolved by the end of April.
    Mr. LARSON. So I am to assume from that, with respect to 
making decisions on all exemptions, by the time tariffs go into 
effect on Friday that would not be the case, you are shooting 
for April?
    Ambassador LIGHTHIZER. That is correct.
    So there will be two categories of countries. And setting 
aside--your constituent may very well have a product exclusion 
issue--so setting that--I am sure he knows that. He's doing 
whatever he is going to do, and he may very well not have a 
problem on that.
    Mr. LARSON. I will submit that to you in writing, and, if 
you can respond on that, I would appreciate it, that specific 
concern. Thank you.
    Ambassador LIGHTHIZER. And that's important. That's being 
done at the Department of Commerce. But we will certainly be a 
part of the process to the extent it helps your interest.
    So, in terms of the countries, you'll have a certain group 
of countries, I believe. Now, once again, there has no 
decision, and there is no decision until the President makes a 
decision. As far as I am concerned, when he signs something, 
there's a decision.
    But there are certain countries--the principal examples, of 
course, which would be Canada and Mexico--where during the 
process of this negotiation of trying to decide whether they're 
going to get out of this--and I should say ``get out'' means 
they can't be in a position where they get out and take 
advantage of all the benefit. It doesn't go to U.S. producers, 
so there ought to be some limitation on their own shipments, 
but, presumably, not one that's a problem.
    During the course of that process, with respect to certain 
countries, the tariffs will not go into effect. That's how I 
envision it. Now, whether this happens is up to the President. 
But I envision it, during the course of this negotiation 
between now and the end of April, that those countries do not 
see their tariffs go into effect.
    There are other countries who think they should be excluded 
that it will go into effect, and it will go into effect on 
Friday. For those people, there'll be more of a disruption.
    But in terms of access for your constituent, I don't think 
you are going to see an enormous shortage of aluminum. Now, 
once again, I am not an economist, and we can all make our own 
guesses. But you're going to have a variety of countries--in 
the case of aluminum, the very fact you're negotiating with 
Canada is enormous, right, because they are such an important 
supplier. And the other countries I also mentioned, those 
countries will not see an increase, as I believe this will work 
out.
    But with respect to the others, you will see a 10-percent 
tariff increase as of Friday.
    Mr. LARSON. Thank you, Ambassador.
    Chairman BRADY. Thank you. Your time has expired.
    Mr. Buchanan, you are recognized.
    Mr. BUCHANAN. Thank you, Mr. Chairman.
    And thanks, Ambassador, for being here today. I am excited 
to see you get some of your team put together. It has been a 
while, so it is great to have that.
    Like many of us, I have two situations in our district that 
I would like to have you just give some thought to in terms of 
NAFTA, one good and bad. But, kind of like the Chairman, my 
sense is I want it to be whatever we do pro-growth for the 
United States and jobs.
    But one company is Tropicana. It was founded in my district 
in the Manatee County, Bradenton area. It creates over 1,000 
jobs. It was acquired by PepsiCo. But, in terms of NAFTA, it 
has been good for them and good for their industry, in terms of 
eliminating tariffs. So that is one thing I would like to have 
you just talk about a little bit: Tropicana. Basically, they 
are, as you know, an orange juice business. You can't imagine 
Florida without orange juice.
    And let me just mention, also, on the second scenario, as 
you know, we have pretty much the same growing season as Mexico 
does. So, in terms of the second situation, unfair trade 
practices, a lot of people feel, in Florida, as it relates to 
tomatoes, strawberries, and peppers, it has cost that industry, 
that business, about $2 billion a year, $1 billion to $3 
billion, in terms of unfair trade practices.
    So I would like to have you take a minute to address both 
of those, as quickly as you can, because I have one other 
question.
    Ambassador LIGHTHIZER. I'm not very good at the quick part, 
but I'll try to be quick.
    Mr. BUCHANAN. I will let you know.
    Ambassador LIGHTHIZER. First of all, of course, there's a 
big advantage in--I mean, one of the principal advantages in 
NAFTA is the reduction in those tariffs. I'm not sure exactly 
which tariff we are talking about and what the numbers are. But 
the reality is that if we end up with a successful agreement, 
the tariff benefit will be preserved. So I think that will 
probably be less of a problem, and it's more in favor of them 
saying: We want to get NAFTA through. That's a provision that I 
am aware of.
    The seasonality provision is an important, significant, and 
controversial provision. So I start with the proposition that 
with all the great things of sales in Mexico of agriculture 
products--and there's a lot, whether there is $18 billion or 
$19 billion worth of sales by the United States in Mexico of 
agriculture products--the reality is that we have a trade 
deficit with Mexico on agriculture products. A good part of 
that are exactly the ones that you're very familiar with.
    So the idea is that these producers, even if they are 
victims of unfair trade, can't take advantage of the unfair 
trade laws because they really weren't constructed to deal with 
products that are perishable. So the idea is to put in place 
some kind of a provision that shrinks the amount of time you 
look at, in terms of calculating dumping margins and injury so 
that these products--if you spread it out over a year or over 
three years on injury, are always going to lose--you give them 
a shot at proving unfair trade. That is the nature of the 
proposal. It is extremely controversial with respect to a 
variety of people who don't like it.
    Mr. BUCHANAN. We will take some time a little bit later and 
talk a little bit more about that.
    Let me just hit you quickly on, because you got some of 
your team here, your new team, is on TTIP. There was a lot of 
work that I think, or let's say some work, that was being done 
by the last Administration in terms of Europe. And the thought 
is there we have a lot of the same values, a lot of the same 
background; it seems like it makes a lot of sense, and it is a 
real opportunity for America. Especially as you look at wages 
and benefits, there are a lot of comparable things with the 
United States. And, overall, it has been pretty fair both ways. 
So maybe you can comment on that now that you have a little bit 
more of your team in place.
    Ambassador LIGHTHIZER. Well, thank you. I will.
    It is something that we have looked at. Clearly making 
headway with Europe is a top priority. We have with the 
European Union a $150 billion trade deficit. After China, it's 
literally our biggest problem. And it is, basically, Germany, 
60; Ireland, 38; Italy, 30; and France, 15; and then everyone 
else we are basically, more or less, in balance with. So it is 
a problem.
    Making headway in that area is very important. It is 
something we are looking at. They're a little bit in flux right 
now. But I think making headway on Europe is a high priority. 
It's clearly something the President wants to do. Whether it is 
in the form of TTIP, which some people think is more cumbersome 
than we need, or in another form, your point is one that we 
completely endorse and think that we have to make headway on 
that front, and I believe we'll make headway.
    Mr. BUCHANAN. Thank you.
    I yield back, Mr. Chairman.
    Chairman BRADY. Thank you, Mr. Buchanan.
    Mr. Kind, you are recognized.
    Mr. KIND. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for your time here today. I 
really appreciate it.
    Just a word of advice. When it comes to KORUS 
renegotiation, or however you want to call it, it is much 
better to have Congress with you on the takeoff rather than 
just the landing. We know that we are getting into sensitive 
discussions with them, but there have been many businesses in 
my district that have benefited under that agreement, too, and 
they are getting nervous about where the stage of these talks 
are going.
    And, secondly, I am all for NAFTA modernization and 
bringing it into the 21st century. The global economy has 
changed. I am all for aggressive enforcement of our trade 
agreements, 301 or otherwise.
    What I have a problem, with and what I hesitate about, is 
this go-it-alone attitude with this Administration in trying to 
promote a trade agenda by further isolating ourselves. America 
First does not mean America alone. There is a huge benefit to 
having friends and allies around the globe that we can work 
with in order to establish a trading system that works for all 
of us at the end of the day.
    Either this President, or this Administration, has 
conveniently forgotten, or maybe never learned, the lesson of 
our preeminence since the Second World War. It was not only our 
military strength, but it was our willingness to take the lead 
in shaping a rules-based global trading system with countries 
across the globe with shared values.
    By isolating us and by demonizing many of our friends and 
allies with a broad scope of retaliatory action, I think makes 
our trade agenda that much more complicated. I am worried about 
the potential for retaliation when it comes to the steel and 
aluminum tariffs. I think the whole approach to that was ill-
considered. It was chaotic. It was confusing. Now we are going 
on a business-by-business exemption basis. And now we are going 
to allow some of our friends and allies to apply for exemptions 
without clearly defining criteria.
    And I hope this Administration is thinking about what plan 
B is going to look like if there is retaliatory action taken 
against us. Back home in my State, in Wisconsin, my dairy 
farmers' backs are up against the wall. If we lose market share 
down in Mexico, that could destroy our dairy industry in this 
country overnight because of the number one export market being 
taken away from us. That could cause a lot of problems in the 
heartland of our country.
    And dealing with steel and aluminum, for every job that is 
involved in steel or aluminum producing in this country, there 
are 200 jobs that are involved in consuming this material. As 
we learned from the 2002 steel tariff case, which was quickly 
rolled back under the Bush administration, the unintended 
consequences can be pretty severe for many workers and for many 
businesses and industries throughout our country. So I ask you 
to consider that as we move forward, including the 301 approach 
to China, and what type of action they could take against us.
    But what troubles me, perhaps, more than anything today, 
sitting here, is this love affair that our President seems to 
have with Vladimir Putin. And I come to a very fearful 
conclusion that the President of Russia owns the President of 
the United States. That manifested itself in a telephone call 
yesterday, where the President called to congratulate Vladimir 
Putin on a completely bogus and fraudulent election and then 
failed to even raise the issue of a chemical weapons attack on 
one of our allies' soils--Great Britain--and failed to raise 
the issue of Russia's direct meddling in our democratic process 
as a Nation.
    And so it leaves us scratching our heads, just what is 
going on with this President and this Administration in our 
relationship with Russia. We passed enhanced sanctions last 
year, almost unanimously, through the House and the Senate, 
only to see it sat on with the Administration for months before 
any action was taken with it. And that was problematic and very 
troubling as well.
    And, right now, I couldn't think of Vladimir Putin having a 
better straw man occupying the Oval Office, given all the 
missed opportunities that this President has passed up when it 
comes to standing up and defending our values and our strategic 
interests throughout the globe against Russia, who is not our 
friend, and they are not our ally, and yet somehow the 
President misses this important ingredient.
    So I was just wondering whether you were part of the 
economic team involved in the application of sanctions against 
Russia that was passed almost on a unanimous basis last year by 
this Congress and why it took so long before any action was 
taken on it.
    Ambassador LIGHTHIZER. Thank you, Congressman.
    I only have 18 seconds. So I'll just say: With respect to 
the stuff you are talking about on trade, yes, we're worried 
about retaliation, and, yes, we don't want to go it alone. And 
with respect to all this Russian stuff, I completely disagree 
with every single thing you said.
    Mr. KIND. Were you a part of that decision, as far as the 
application of sanctions?
    Ambassador LIGHTHIZER. I'm the U.S. Trade Representative. I 
do trade work. I don't do sanctions work. It has nothing to do 
with me at all--not for 5 minutes in my entire life. But I 
appreciate you bringing it up.
    Chairman BRADY. The gentleman's time has expired.
    Mr. Smith, you are recognized.
    Mr. SMITH OF NEBRASKA. Thank you, Mr. Chairman.
    Thank you, Mr. Ambassador, for your time here today, as we 
have very important discussions, whether it is NAFTA, whether 
it is KORUS or whether it is various trade issues that we know 
are important to American producers, particularly Nebraska ag 
producers. That is my focus. But we know that consumers live in 
every one of our districts, obviously, and we always want to be 
mindful of that.
    As it does relate to agriculture--and certainly I have 
expressed to you and I have expressed to the President, as 
well--that as we modernize our trade agreements--certainly I 
appreciate that--if we could also, obviously, do no harm to 
those areas we have done particularly well with, namely 
agriculture. Energy has been discussed, as well.
    Forty-five percent of Nebraska's agriculture exports go to 
Canada and Mexico. So it is no surprise that NAFTA is important 
as we do move forward. And I just continue to strongly urge you 
to keep this in mind of how important these exports are, 
especially as I can appreciate the need to close the gap, the 
trade gaps that do exist. One thing, agriculture exports do 
help us on narrowing those gaps, and I hope that we can 
continue to expand our international reach and expand 
international markets for agriculture.
    Briefly, the President touched on the possibility of 
reengaging the countries in TPP. I have two questions. That 
would be one of them, is if you could elaborate, perhaps, or 
reflect on the potential of reengaging a TPP that, as you know, 
has moved forward without the United States.
    And then, also, the President has touched on the bilateral 
trade agreements that he would like to pursue, perhaps. And if 
you could also reflect on that and how we might be able to 
utilize that moving forward, whether it is with Japan or other 
countries, that we would like to see more exports of U.S. 
products heading in those directions.
    Go ahead.
    Ambassador LIGHTHIZER. Thank you, Congressman.
    First of all, we appreciate your intervention on this issue 
of the importance of agriculture. We completely agree with it. 
Not only have you raised it repeatedly here, but in all other 
contexts. It's very important to us, both in terms of the 
consequences of our other action on agriculture, but, more 
importantly, probably, using the trade agenda to promote 
agriculture.
    So we sit back and we talk about the fact that we have, 
whatever it is, $140 billion worth of agriculture sales. In 
most of the markets we go into, we could sell vastly more. And 
we're really facing protectionism. I mean, Europe is a good 
example, and China is a good example. There is enormous, 
enormous opportunity. And a lot of things that we design, we 
design with that in mind. So agriculture is important. It's 
crazy to sit back and be defensive in agriculture, however, 
because the reality is we're being stopped in a lot of places 
from just local political pressure creating protectionism.
    On the issue of TPP, I guess I would say the following: 
It's complicated to get in and renegotiate that. But if you 
analyze TPP, you have 11 countries in TPP. With respect to six 
of them, right now, we already have a free trade agreement. So 
the idea of upgrading that and getting those in a position 
where you think that what you want is fine.
    With respect to the other five, by far, the most important 
is Japan, which we already raised. I don't know what the total 
amount is. Japan is maybe a $5 trillion economy. I bet all the 
rest of them together weren't $1 trillion. Because the next 
biggest one is Malaysia, which is just over $300 billion. And 
then Vietnam is the next one after that.
    So I am saying, of the five, if you got an agreement with 
Japan, you've essentially solved the whole problem. Certainly, 
if you got one with Japan, Vietnam, which some people have 
suggested, or Malaysia, you have basically taken care of 95 
percent of what is outside of the United States albeit right 
now that's in the TPP sphere.
    I think when people think about TPP, sometimes they think 
of it as something that we are not a part of. We already have 
FTAs with six of these countries--not to say that they can't be 
improved, and they should be improved.
    But the way I analyze it, I say, number one, you have a 
problem because you want to work it out with Japan, because 
they're, by far, the biggest economy in the world, and by far 
the biggest of those. And then somebody has to sit down and 
decide, do you allocate resources to Malaysia, or do you 
allocate resources to Vietnam? And there are reasons for that. 
You can argue all of them. And our view is that is the job this 
deputy has to do. We have to come to grips with that. Japan is 
clear, but the next tier we have to kind of get to that, and we 
have to get the opinion of this Committee.
    Chairman BRADY. Thank you. The gentleman's time has 
expired.
    Mr. Pascrell, just a reminder, after your questioning, we 
will go to two to one, so we can balance out the rest of the 
hearing.
    Mr. Pascrell, you are recognized.
    Mr. PASCRELL. Thank you, Mr. Chairman.
    Thank you, Mr. Ambassador.
    I think it is clear, after Montreal and Mexico City, and 
thank you for your indulgences up there, that we are 
approaching, I think, a culminating part of the negotiations. 
That is my judgment. We have a lot of tough issues to address. 
I quickly went through the document that we are supposed to be 
talking about today. Part of it is NAFTA.
    Some of your NAFTA proposals have really challenged the 
status quo of U.S. trade policy and I think have been creative 
in trying to make the agreement work for the many and not just 
the few. All the boats have to rise. And I have confidence, 
still, that you are working to ensure the labor chapter of 
NAFTA is fully enforceable, building on the strength of the May 
10th agreement as a floor and not a ceiling. And I want you to 
interrupt me if I say something that is not in place. Please 
feel free to do that.
    Enforceable labor standards alone will not entirely solve 
the key driver of outsourcing under NAFTA. We all know that.
    For 25 years, Mexico has engaged in a purposeful strategy 
of labor and wage suppression in order to attract investment at 
the expense of the United States and the expense of Canadian 
workers in ways that have expanded poverty for Mexican families 
instead of--the record is clear on this, the numbers are 
clear--building a middle class market for U.S. exports.
    You identified in the trade agenda report--you identified. 
You said this: Since NAFTA went into effect, the gap in Mexican 
wages and labor productive with the United States has widened. 
The OECD, the organization that we know about for many years, 
reports that the average annual wage in Mexico fell from 
$16,008 in 1994 to $15,311 in 2016, unquote.
    I met with the workers in Mexico City just a few weeks ago 
because reading about it and looking at statistics is very 
different than hearing anecdotal stories about actual 
situations that are tangible. And no Democrat and no Republican 
can deny these.
    They are in the auto parts factory, many of them, and were 
making less than a dollar an hour. No options to bargain for 
better treatment. Both the labor rules in NAFTA and in Mexico--
Mexico's own labor law and practice--must be upgraded to make 
real changes for workers, both in Mexico and my district.
    Do you agree that Mexico has failed to live up to its 
obligations with respect to NAFTA's labor side agreement, yes 
or no?
    Ambassador LIGHTHIZER. Yes.
    Mr. PASCRELL. So please explain how USTR is working to 
solve the problem of low wages in so-called protection unions, 
which you identified yourself--not I--you, in Mexico, and I 
agree with you wholeheartedly. How are we working to get this 
done? Explain.
    Ambassador LIGHTHIZER. I would say, first of all, that 
while wages have been stagnant--and that was not our 
expectation at all when we entered into this agreement. If you 
look at the way it was sold, it was clearly sold as wages go up 
in Mexico, they became customers for us and we get to sell a 
lot more stuff, and that has not happened.
    I would say, from the point of view of Mexico, it has 
created a lot of jobs, though--low-income jobs, in our opinion, 
but a lot of jobs. And a lot of those have been in the auto 
industry. And I would suggest many of those at the expense of 
U.S. jobs.
    Mr. PASCRELL. And that is important, isn't it, Mr. 
Ambassador, to understand the relationship between how low 
wages--I am putting it as simple as possible--in Mexico do 
affect jobs--can I at least finish what I am saying?
    Chairman BRADY. I am sorry, Mr. Pascrell, all time has 
expired. Maybe another Member can yield to you.
    Mr. PASCRELL. I don't want anyone to yield.
    I am asking a question. Can I answer finish my question?
    Chairman BRADY. I am sorry, Mr. Pascrell.
    Mr. PASCRELL. Well, do you know what? That stinks.
    Chairman BRADY. Thank you.
    Mr. PASCRELL. You are welcome.
    Chairman BRADY. Ms. Jenkins, you are recognized.
    Ms. JENKINS. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for being here.
    I want to reiterate my support for the continuation of 
strong investor protections, like Investor-State Dispute 
Settlement in NAFTA. And I have grown concerned about reports 
to weaken, remove, or make protections optional.
    ISDS ensures U.S. investors in foreign countries benefit 
from the same process and due compensation rights that foreign 
investors enjoy in the United States under our Constitution. 
That sounds a lot like the reciprocity and trade deals that 
this Administration wants.
    Foreign investment by U.S. companies also creates and 
supports U.S. jobs. For example, the family farm and ranch 
operations in my district who depend on exporting their 
products to Mexico utilize Kansas City Southern Railroad to 
provide that vital link to reach these crucial markets. This 
cross-border infrastructure will not be possible without the 
$4.5 billion in Kansas City Southern invested in Mexico over 
the past 20 years.
    Additionally, when the House and the Senate last passed 
trade promotion authority, it established ISDS as a negotiating 
objective. So not including ISDS in NAFTA would be a direct 
rebuke to Congress' explicit direction and could undermine 
critical support for a renegotiated NAFTA lacking such 
protections.
    Ambassador Lighthizer, I urge you to reconsider your 
position on ISDS. Continuing to include ISDS in NAFTA makes 
good policy and political sense.
    And to speak just a little more broadly, Ambassador 
Lighthizer, I can't overstate the importance of NAFTA for the 
farmers, ranchers, and manufacturers in my district. In fact, 
about two-dozen county Farm Bureau members from eastern Kansas 
were just in my office yesterday to hammer this point home. 
They depend and rely on being able to sell to Mexico and Canada 
as though their livelihoods depend upon it, because they do.
    The message I received is the need for certainty that NAFTA 
benefits, which have allowed Kansas exports to surge, remain in 
place. This certainty is paramount to providing desperately 
needed assurance to all aspects of the Kansas economy.
    The small towns across my district that make up America's 
agriculture heartland are depending on the Administration 
getting this modernization right and moving on to expanding 
into new markets and joining new trade deals. That is why I 
strongly support NAFTA and why I encourage this Administration 
to follow through on its promise of doing no harm.
    With that, Mr. Chairman, I yield back.
    Chairman BRADY. Thank you, Ms. Jenkins.
    Mr. Paulsen, you are recognized.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for being here, and also for 
your work and progress on the NAFTA renegotiations, 
particularly in the area of regulatory practices, 
anticorruption issues, customs issues, and digital trade. 
Modernizing NAFTA with a digital chapter is essential, not only 
to protecting American innovation but also access to markets 
through e-commerce that many of our American products and 
services are sold from.
    But I have to tell you: The President's decision to invoke 
a very little used 1962 law to impose these broad tariffs is 
creating a lot of uncertainty, and it does threaten to derail 
some of the economic gains and benefits that we have seen 
recently in our economy. And it seems like every time now that 
I speak to a Minnesota company, they have a lot of questions 
about some of this uncertainty to the current trade climate 
that we have.
    I usually begin the conversation by talking about the real 
economic benefits that they have already seen right now from 
the Tax Cuts and Jobs Act. And they tell me how they are 
investing more in new equipment, they are reinvesting in their 
employees, and that is a good thing. But then they also will 
talk about some of the bad news regarding the new tariffs and 
maybe pulling--the threat to pull out of NAFTA, for instance.
    There was one Fortune 500 company in Minnesota recently 
that produces engines and generators. They said that half of 
their economic benefit made by tax reform will be wiped out by 
the steel and aluminum tariffs that are being imposed.
    And it is not just large employers that are being impacted 
or putting these projects on hold now. We have small 
manufacturers and small businesses, like R&M Manufacturing that 
shared their thoughts with me directly, saying they are opposed 
to the steel and aluminum tariffs that are under section 232, 
saying it would be disastrous for them as well as other small 
metal-forming companies, because raising their prices means 
they are going to no longer be competitive, and they are going 
to get clobbered.
    So I support the President's objective, and your objective, 
of really fighting for the American worker that needs that 
support in helping employees of U.S. steel companies. But some 
of those gains are going to be swamped by some of the larger 
losses that could be felt by much larger losses at metal-
consuming companies and other areas across the economy if we 
have those retaliation tariffs.
    Economists now are saying, with the trade partnership, for 
instance, the study says, the United States would lose five 
jobs for every job created in steel and aluminum savings. And 
that is without retaliatory tariffs. If you take in 
retaliation, it could be a net loss of 18 jobs for every job 
gained, and it is not even close. That is 470,000 jobs. Most of 
those jobs are production. They are blue collar. They are 
exactly the type of jobs that I think you and the President are 
intent on protecting.
    And I think we are on pins and needles with the upcoming 
potential announcement later this week because retailers like 
Best Buy in Minnesota are concerned about the upcoming section 
301 tariffs. And I am all for targeting Chinese intellectual 
property violations and holding them accountable, but let's be 
targeted in what we want China to change and let's go after 
that, because consumer electronics don't have domestic 
production.
    And I hope we won't be seeing tariffs imposed on products 
that a lot of American families and consumers and small 
businesses purchase every day. It wouldn't make sense to raise 
the cost of a laptop for a college student or a couple of 
hundred dollars on a computer for a small business, for 
instance. I would say, I would ask: How is that going to help 
change the Chinese minds?
    And I know, in Minnesota, we have 800,000 jobs now that 
rely on trade. It is one of the reasons that we weathered the 
economic storm a lot better than most States: we have a lot of 
high-value manufacturing. And those jobs, by the way, pay a lot 
higher than average salaries.
    So let's just not shoot ourselves in the foot. I don't 
believe any country wins a trade war. I think all countries 
lose. And, Mr. Ambassador, I think every one of the companies I 
highlighted and I have heard from, they share the exact same 
goal that you have: to change China's behavior.
    I just want to ask, would you be willing to meet with some 
key industry leaders or make sure some folks are sitting down 
and we continue to work together on solutions that are really 
going to be effective in that capacity?
    And I will ask some more followup targeted questions that 
are more specific in the written record, Mr. Ambassador.
    Ambassador LIGHTHIZER. Well, there's a lot there.
    First of all, with respect to that trade partnership study, 
I haven't looked at this one particularly. I've looked at those 
in the past. The accuracy of them is so slow that I wouldn't 
let it keep me awake at night. That is not to say that the 
basic point that we have to balance downstream effects is very 
important, and we understand that.
    Nobody wins from a trade war. We certainly don't want a 
trade war. On the other hand, you have to ask yourself, can we 
go on with an $800 billion, and growing, billion dollar trade 
deficit? There is only a handful of countries in the whole 
world that have a GDP the size of that. So we have to do 
something.
    And the people who are benefiting from the status quo are 
always going to be against it. And we understand that, and we 
have to balance their interest. But the reality is, if you are 
on a course that is unsustainable, you have to figure out 
something to change.
    Am I willing to sit down and meet with business people? I 
am happy to do that. And I would say I and my deputies do it 
every day. We have had an enormous amount of contact with 
business people, and I think it's an extremely important part 
of what we do.
    Mr. PAULSEN. Thank you, Mr. Ambassador.
    Chairman BRADY. Thank you. The gentleman's time has 
expired.
    Mr. Higgins, you are recognized.
    Mr. HIGGINS. Thank you, Mr. Chairman.
    Ambassador Lighthizer, what is your view of the U.S. trade 
relationship with Canada? Does the United States have a trade 
deficit or a trade surplus, in your view?
    Ambassador LIGHTHIZER. One of the great questions of all 
times.
    This is something on which I have spoken about for years. 
Here is the situation, and the numbers are all confusing, and 
when I am finished it will be appropriate to ask, ``If you are 
not confused, then you are not paying attention,'' all right, 
so you will be confused.
    Mr. HIGGINS. Quickly. I only have 5 minutes.
    Ambassador LIGHTHIZER. I'm sorry. But you can't ask a 2-
hour question. I'll give you the shortest version of it.
    The fact is that, if you look at goods on a customs basis, 
yes, we have a $17 billion deficit with Canada.
    If you look at a customs basis, what does Canada say their 
surplus is, which should be the contrary, that turns out to be 
$97 billion.
    So Canada thinks on a customs basis, they have a $97 
billion surplus with us whereas the number is somewhere in 
between. And what's the cause? The cause is a lot of things. 
But the biggest one is it is products that come into the United 
States and go up to Canada, in many cases, we count them as a 
U.S. export, even though they are not U.S. exports. If they are 
duty free, they can just be trucked up there and have nothing.
    The Canadians, however, look upon it as an import from the 
appropriate country. Now, if you look at it on a balance of 
payments basis, then the numbers are different.
    And if you look at it on a customs basis for goods only at 
17--and then people sometimes will say, what's the services 
surplus, because we do have a services surplus--but on a 
customs basis, there is no services number, so you have to take 
a services number from another dataset. And if you do that and 
you use our number, then we have a small surplus. If you use 
that and use their number, we still have an enormous deficit.
    Mr. HIGGINS. Okay. Has the strong-arm tactics of the 
President as it relates to tariff threats, have they helped or 
hurt the negotiations?
    Ambassador LIGHTHIZER. Well, first of all, I don't buy your 
premise. I don't think there's been any strong-arm tactics. I 
would be interested to know specifically what you are referring 
to.
    Mr. HIGGINS. Specifically, I am referring to tariff 
threats. In other words, the President in published reports has 
stated that he is issuing tariff threats against Canada and 
Mexico as leverage to get a better deal in NAFTA negotiations. 
It is pretty simple.
    Ambassador LIGHTHIZER. Oh, I see what you are saying. You 
are saying, does the 232 affect the negotiations?
    Mr. HIGGINS. No. I am saying, does the strong-arm tactics 
of the President threatening tariff threats help or hurt the 
negotiations? It is a very simple question.
    Ambassador LIGHTHIZER. Well, then the answer is I have seen 
no strong-arm tactics, so they've had no effect on the 
negotiations.
    Mr. HIGGINS. Ninety-three percent of the heroin seized by 
the United States Drug Enforcement Agency came from Canada--or 
from Mexico--81 metric tons of heroin today. The President has 
demanded that Mexico do more to prevent drugs from entering the 
United States as a condition for lifting steel and aluminum 
tariffs. Is that something that has found its way into the 
negotiations?
    Ambassador LIGHTHIZER. Well, in the first place, there is a 
lot going on between the United States and Mexico to try to 
deal with the heroin problem. It is a legitimate problem on 
which no one can disagree. And there is a lot of stuff going 
on, and it's not something that I am the slightest bit involved 
with. But I know it's going on. I sort of hear about a lot of 
important stuff, and I think it will make a significant 
difference.
    Mr. HIGGINS. So there is discussion going on.
    I have a final question because this is important.
    What, in your opinion, optimally and realistically, will be 
in the renewed NAFTA discussion outcome, final agreement? What 
will it look like as it relates to net benefits to the United 
States? Specifically, name three net new provisions that will 
benefit American workers.
    Ambassador LIGHTHIZER. Well, I mean, there are so many of 
them, some of which would be controversial, so I won't mention 
them.
    But, clearly, rules of origin would be an enormous increase 
in benefit to the United States.
    The IP provisions are going to be an enormous and just an 
unarguable benefit to the United States. Huge improvements will 
be made in digital trade, which will be extremely important to 
the United States. And I could literally go down. There is 
services trade. We have 33 chapters. And of all those chapters, 
I personally don't think there is a single one that won't be a 
significant improvement for the United States. And I would say 
that, of the 33, the Members here would agree that 90 percent 
of them are huge improvements to the United States, assuming we 
get an agreement. But, yes, I think it's a very powerful, very, 
very important improvement in a whole variety of areas.
    Chairman BRADY. Thank you. The gentleman's time has 
expired.
    Mr. Marchant, you are recognized.
    Mr. MARCHANT. Thank you, Mr. Chairman.
    Thank you for being here today, Ambassador.
    My district is in north Texas. It is the home of the 
Dallas-Fort Worth Airport. So our area basically is involved 
more in the administration, distribution, marketing, and 
storage of NAFTA goods and services more than the production of 
the actual product. That has created just a boom-town type 
economy in Dallas.
    And so my home builders have come to me since we gained 
90,000 jobs last year. It has put a lot of pressure on our home 
building and our apartment building and our whole building 
community. So they are concerned because of the tariffs that 
are involved in lumber, mainly with Canada, I think, and have 
provided me with charts that show that the lumber prices have 
escalated 40 to 60 percent in just the last year.
    And I would like to just have a discussion with you about 
maybe just the purpose of the tariffs. Are they serving a 
purpose? Is there some relief in sight? Is the NAFTA agreement 
going to address these tariffs? Are they separate? And just 
general information for my home builders back home.
    Ambassador LIGHTHIZER. Thank you, Congressman.
    So, if we are talking about the softwood lumber tariffs 
between the United States and Canada, those are the result of 
sometimes people talk about those as if there's some kind of 
Administration policy. There's no Administration policy on 
this, other than the policy that everyone here believes, which 
is that you have to enforce your laws against unfair trade.
    So you have affected U.S. companies, who bring cases. They 
get duties. They go through and prove what the level of the 
dumping economy and subsidies are. Then they go and they prove 
that they've been injured at the ITC, and then they get orders 
put into effect. That is the process that has gone on, and it 
will go on.
    And then, in the past, and to some except ongoing, there is 
an effort to try to get the U.S. industry to give up their 
rights under those in exchange for some kind of a package or 
something that will sort of smooth things out. That's a process 
which goes on every now and then. In the past, there have been 
a number of memorandums of understanding and numerous attempts 
to kind of work this out, that have worked it out.
    Right now, I would say there's probably not much going on 
in terms of those negotiations. Are they part of NAFTA? Not as 
far as I'm concerned, they're not part of NAFTA. As far as I'm 
concerned, this is a function of the trade laws working the way 
Congress designed them to work. When this happens, sometimes 
prices go up, and sometimes it's unfair to people, and 
sometimes the fact is they were just taking advantage of an 
unfair situation before and making money on low prices. And I 
don't know which it is in this case, but they could both be a 
factor.
    But, to me, it is unlikely, I think--I wouldn't put it at 
zero--but it is unlikely that I am going to end up solving this 
issue or trying to resolve this issue. Right now, the positions 
are kind of intractable. And the people that brought the 
litigation have the right, just like anyone else here, and any 
your constituents are who bring a case and win it, have the 
right to get the benefit of a lawsuit.
    Mr. MARCHANT. Okay. I appreciate your answer. Thank you.
    Chairman BRADY. Mrs. Black, you are recognized.
    Mrs. BLACK. Thank you, Mr. Chairman.
    And thank you, Ambassador, for being here today.
    My district and my State of Tennessee has really benefited 
greatly from NAFTA because it has helped to bring some of the 
large-scale manufacturing automobiles to the State of 
Tennessee. It is quite an operation there across our entire 
State. These operations are tremendously important to our 
communities, especially one right there in the middle of 
Tennessee, Smyrna, which is the home of the Nissan plant that 
produces more than 150,000 automobiles in that plant annually. 
So it is a big issue for that middle Tennessee area.
    There has been considerable press regarding USTR's auto 
rules of origin proposal, which, if the press reports are 
accurate, appears to be wholly unworkable for the industry and 
could have some perverse effect of costing American jobs rather 
than creating them, which, again, is a real concern for us 
there in middle Tennessee, in particular.
    I understand that Canada presented a framework of ideas as 
a counterproposal during round six in Montreal, but that 
Canada's proposal could result in less regional content than we 
have now. So can you update us on whether Canada has been able 
to provide additional details regarding their proposal or 
whether Mexico has provided its own proposal on the autos rules 
of origin, because it is really critical for our communities 
like Smyrna, and we need to get it right?
    Ambassador LIGHTHIZER. Thank you, Mrs. Black.
    I would say this. First of all, the auto plants, 
particularly what we used to call transplants, coming to 
Tennessee and other places has been an enormous boon, very 
important not only to Tennessee but for the country. So I think 
we have to acknowledge that, number one.
    Number two, the rules of origin will have no effect on cars 
made in Tennessee and sold in the United States. They are kind 
of irrelevant to that whole equation. They have no effect on 
them at all.
    What Nissan was worried about is that Nissan would say: I 
have a plant in Mexico that wants also to sell in the United 
States, and that plant, in fact, has very, very little U.S. 
content, so that plant has a problem. But it will have no 
effect on anybody working in Tennessee for a Nissan plant for 
any car sold in the United States. I want to make that point 
because sometimes when they go around and talk about this, they 
kind of conflate those two things, and they're completely 
separate.
    In terms of our working, we are working with the industry 
very closely on rules of origin. We want to be in a position 
where more of these jobs that are in Mexico right now come back 
to the United States. The basic model that Mexico has had--and 
there has been reference to it over here. It is a smart model 
from their point of view. They want to lure companies to come 
to Mexico to make cars and sell them in the United States. Take 
advantage of their low wages, but take advantage of other 
things, too, like subsidies and like duty drawbacks and the 
like.
    So that's a strategy, which is buy from Mexico, that is not 
necessarily a strategy that is smart for the United States. So 
our objective is to have more U.S. content, but even really 
Canadian content. The idea is it shouldn't just be a model 
where you come in, you are subsidized, you make stuff in 
Canada--I am sorry--in Mexico, and sell it to 80 percent the 
United States. That's not a very good model from our point of 
view.
    So our objective is to try to find the line where we can 
encourage them to move some of that production parts--cars, but 
also parts--back to the United States. And we're in the process 
of talking to the companies and trying to do that. Our hope is 
that we get something that at least some of the large 
manufacturers will find useful.
    With respect to others, I suspect they're going to be in a 
position where any change is going to move them to the point 
where they will have to pay the 2.5 percent tariff. But none of 
those will involve companies' workers who are in Tennessee or 
in the United States. I wanted to make that clear.
    If we are going to improve the situation in NAFTA, we have 
to get rules of origin to get more jobs to come back to the 
United States. Will they all come back? No, of course not. Not 
a chance. But a lot of them can come back, and that's our 
objective.
    And the Canadians, to be honest, have a similar objective. 
They also have been seeing a diminution in their auto industry, 
and they have a similar objective. And the Mexicans are in a 
position where they have to balance. But we are trying to work 
our way through that.
    Mrs. BLACK. Thank you. I yield back.
    Chairman BRADY. The gentlelady yields back.
    Ms. Sewell, you are recognized.
    Ms. SEWELL. Thank you, Mr. Chairman.
    And welcome, Mr. Ambassador. Thank you for joining us.
    I want to spend my time, limited time, focusing on the 
current U.S.-South Korea trade agreement renegotiations. As you 
know, auto manufacturing is critical in Alabama's economy. I 
have a Hyundai plant in my district that employs 3,000 workers 
and provides many of my constituents with high-paying jobs. 
Therefore, the U.S.-Korean relationship is very important to 
Alabamians and especially to the Seventh Congressional 
District.
    I understand that this Administration has concerns about 
the implementation of the original agreement, and I can 
appreciate those concerns. I, like many of my colleagues who 
have spoken earlier, really just want to reemphasize the 
importance of transparency. I share with my colleagues the 
concerns about lack of transparency in this renegotiation 
process, and my question really is, as I understand it--the 
reason why I would assume that you are invoking TPA for NAFTA 
but not doing so for the KORUS agreement you have stated was 
because there are only minor amendments, and I guess I am 
questioning the unilateral decision that the executive branch 
can make as to, you know, to keeping the legislative branches 
and Members of Congress out of the loop. Can you talk a little 
bit about, you know, your ability to not come before us for TPA 
on KORUS?
    Ambassador LIGHTHIZER. Sure. And that's an excellent 
question. The bottom line is that TPA creates a process that 
has a number of steps that Congress is involved, as are cleared 
advisers and the like, and it takes more than a year to do 
realistically and, in fact, probably a lot more than a year. 
So, if you are in a negotiation like we had with KORUS--like we 
have with KORUS--you're in a position where there is a real 
price to the uncertainty of waiting for the negotiations to go 
forward.
    Ms. SEWELL. Well, I appreciate it takes a lot of time 
obviously to go through the TPA process. I really was 
questioning what the ability of this Administration or any 
executive to actually make that decision versus, you know, 
coming before Congress and asking for our blessings on this 
renegotiation.
    Ambassador LIGHTHIZER. Sure. So there is an amendment 
process within the agreement, and to the extent you follow the 
amendment process within the agreement, there are certain 
things you can do and certain things that you can't do. Things 
that require changes of law, for example, you probably cannot 
do, and that is why you would almost in that circumstance say: 
Okay, fine, we are going to have to go to TPA.
    But there are a number of things that you can change. You 
can speed up tariffs. There is a whole variety of things you 
can do, and it was I would suggest contemplated by Congress 
when they passed the law implementing that agreement but also 
of similar agreements. It was contemplated that this process 
could be used for certain things and not for other things. So--
--
    Ms. SEWELL. Well, I just want to reclaim--I am running out 
of time. I wanted to reclaim my time. I just really wanted to 
reiterate what you have heard from lots of my colleagues that 
this agreement, the KORUS renegotiation is just as important as 
NAFTA, and there are lots of Members of Congress who will be 
directly impacted by any changes in that agreement, like my 
district, and we obviously would want to be kept abreast and in 
the loop as to the changes that are going to be made and asked 
our consideration as to how will it affect our districts.
    The other thing I wanted to discuss is this Administration 
has shown a link between national security and trade, and I 
also sit on the Intelligence Committee, and I see the threats 
that this country faces every day. I also have commerce--have 
seen how commerce can foster international cooperation and 
bolster national security. So I agree that the trade and 
national security are linked, but President Trump recently 
alluded to the possibility of pulling out American troops out 
of South Korea if South Korea doesn't give into our demands on 
the Korea negotiations. I just want to make sure that and know 
your thoughts about how it is we can threaten strategic allies 
in the process of this renegotiation. I think that there is a 
balance, sir, that must be maintained when we are renegotiating 
with our strategic allies, and threats like that, I don't think 
help. Your thoughts about that?
    Ambassador LIGHTHIZER. Well, I mean, we are in the process 
of doing a lot of things. We certainly agree with you that 
South Korea is a very important ally, and they are not only an 
important ally but an important ally at a particular spot right 
now where there is a great deal of vulnerability. And in terms 
of my negotiations with my counterpart on the Korean-U.S. 
agreement, troops and the like have nothing to do with what I 
am talking about. I don't get involved with it at all.
    Now, there are other people who would say that, in other 
parts of the strategic relationship, from the point of the 
United States, that worry about who's paying for what and all 
these kinds of things, and I know there is a whole world of 
stuff there that's very important that somebody has to sort 
out----
    Chairman BRADY. Mr. Ambassador, I apologize, the time has 
expired.
    Ambassador LIGHTHIZER. I am sorry.
    Chairman BRADY. Mr. Kelly, you are recognized.
    Mr. KELLY. Thank you, Chairman. Mr. Ambassador, thanks for 
being here, and I am glad your team is starting to get filled. 
I know you have been doing yeoman's work on this. Look, you 
know, where I am from in western Pennsylvania--and I am going 
to go through this as quickly as I can because I know there are 
others waiting to talk--but at one time, steel and aluminum 
were such a big part of that area and now our mills are 
shuttered; our towns are decimated. And I think the President's 
talking about putting tariffs on aluminum and steel has been a 
big boost to those folks that live there, giving them hope 
again, because for so many years, people talked about it. And 
if you can repeat, what is the trade imbalance right now, 
because I think people talk about us getting into a trade war? 
And the imbalance right now, is it, what, $800 billion?
    Ambassador LIGHTHIZER. Correct.
    Mr. KELLY. So I guess that is considered a skirmish, not 
really a war.
    Ambassador LIGHTHIZER. $800 billion is the goods numbers, 
the goods and services number is like 565 or some number like 
that.
    Mr. KELLY. Well, we are in a real battle right now to 
maintain our jobs. One of the things I understand that you are 
going to be--you are going to be leading the country exemption 
process for the President, and it has been reported that there 
will be roughly five criteria for granting tariff exemptions 
for countries related to fighting over capacity, blocking 
dumped steel from this market, participating in the global 
forum on steel excess capacity, and supporting antidumping and 
countervailing duty disputes lodged by the United States at the 
WTO. One of the things I want to bring up, one of the companies 
in the district that I represent is a company called NLMK. They 
are in Farrell, Pennsylvania. They have 600 people that work at 
the Farrell plant, and down in Sharon, they have another 150. 
And I think they are pretty much on board with what is going on 
with the tariffs, but they are a Russian-owned company, and I 
know this disturbs so many people; any time the word ``Russia'' 
comes up, we go running around with our hair on fire. What they 
are feeling is that any of these tariffs should be applied to 
overseas companies that have been dumping steel or manipulating 
currency for years, and one of the men up there who represents 
the steelworkers, Terry Day, has said that let's go after the 
people that have been the bad actors. They get the Russian 
steel in, but then they reheat it, and then they roll it out, 
and they make coils with it. I think that some people put 
everybody in the same category. So I just want to make sure 
that, when we go after these folks and these exclusions are 
granted, there are some people that do have a model already in 
place; they have not been taking advantage of a bad trade 
situation, but they have actually, in fact, worked to get 
through it. These are, by the way, American workers that are 
actually producing this product. So, if you can, can you just 
give me an idea on how the country exemption discussions are 
proceeding at this point, and how would a company like NLMK and 
the rest of the foraging companies, because we have a lot of 
foraging companies, too, in Pennsylvania that are looking at 
all this, so how that would work out and how--would they or 
would they not be included in the exclusions, and how would it 
work?
    Ambassador LIGHTHIZER. Let me say, first of all, that there 
are two levels of exclusion. There are product exclusions, and 
I don't know if in their case they have a product coming in 
that is somehow unique in a way that it doesn't reduce the 
efficiency of the program. So there will be--there are--there 
will be a number of countries, and when we've done this in the 
past, because I have been around this before, there's always a 
process where somebody comes in and says this is a unique 
process and a unique product and that price should be excluded, 
so there is that.
    With respect to the countries, I would say there is a 
cognizance on our part that some countries are bigger 
contributors to the problem than others, and a number of people 
believe that Russia is in that group of countries that are 
contributors. So, if you look at when this was originally set 
up, you had option one, which was 25 percent across the board; 
you had option two, which picked out 12 countries, and those 
countries would have higher duties, but others would not. So 
that's the options; the President went with option number one.
    With respect to option number two, one of the countries 
that was viewed to be a significant contributor to the problem 
was Russia, so I'm not exactly sure that, in all cases, people 
would say they are basically operating in clean hands. That is 
not to say that, in your situation, that it is necessarily 
reflective of that. So what these countries tended to be were 
people that imported product from China and exported product to 
the United States. So you even had basically like Costa Rica, 
you had places where you think, what, where does that come 
from? And the presumption was that they were taking in steel 
from China and shipping either that or their own steel and 
replacing it with--to the United States. So I would suggest 
that Russia is at least, in the opinion of some people, is a 
problem. I would say--and there's a number of others who I can 
go through. I would say that there is an effort made to try to 
separate out these things. I don't think you are going to see a 
lot of exclusions done in any event, but I would say this, that 
to the extent exclusions are offered and product exclusions 
come in, it does have a dampening effect in terms of the effect 
on prices and the product, which would have a dampening effect 
on any negative consequences that go down the road.
    Chairman BRADY. Time has expired.
    Mr. Renacci, you are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman. Ambassador 
Lighthizer, from one Ohioan to another, thank you for being 
here. Ashtabula says hello. And thank you for your testimony. I 
would like to tell you about two Ohio farmers I have recently 
spoken to Jerry Bambauer and Dave Dotterer. Jerry and his son 
farm nearly 900 acres in Auglaize County, Ohio. He is the third 
generation of his family to farm the land and hopes his 
grandson eventually steps up to be the fifth generation farming 
the land. His family started with owning 8 acres back in the 
1930s. Through hard work and dedication, the farm eventually 
grew to its current size. The main crop farmed on this land is 
soybeans.
    Jerry's friend Dave Dotterer lives over in Wayne County, 
which is in my district, and also farms soybeans. Dave grew up 
on a dairy farm but didn't really care for milking cows as much 
as his older brother. He knew he wanted to farm land and wanted 
to own his land, so he made it happen. He eventually purchased 
1,100 acres that he farms with his son. His current focus is on 
building up the farm a bit further before he passes it along to 
his son.
    I am telling you about Dave and Jerry because both of these 
men personally identify the American Dream that many farmers in 
Ohio can relate to. But I am also telling you about them so you 
are aware of their concerns.
    As you know, U.S. soybean farmers are very concerned about 
recent suggestions from China that it may target soybeans if 
trade disputes escalate. Given that the United States is one of 
the world's largest exporters of soy and China is one of the 
largest importers of soy, their concerns are valid, especially 
since Ohio is the ninth largest producer of soybeans in the 
United States. So my questions for you, Ambassador, are 
threefold.
    First, in your conversations with other countries, how are 
you addressing the devastating effect that these types of 
retaliatory measures could have on the U.S. farmers? Also, what 
steps might the United States take to prevent this potential 
issue from becoming a real problem? And, finally, is there any 
message you would like to relay to all the concerned soybean 
farmers back in Ohio?
    Ambassador LIGHTHIZER. Well, thank you, Congressman. First 
of all, we're very much aware of the problem, and I made this 
point from the beginning, not only in the context of the steel 
and aluminum but in the context of anything we do with China. 
We clearly have a problem with China. We're clearly going to 
have to do something to stick up for our own interests and to 
prevent ourselves from further seeing our national wealth 
eroded. And when they do, one of the first things they always 
talk about and what we always think about is $14 billion worth 
of soybean sales. They are by far our biggest market, and if 
you look at what they import, even among agriculture product, 
it is sort of like 14 and then the next--14 billion--the next 
falls down to about a billion and a half. I mean, it is 
enormous spike. It's extremely important, and it is a real 
vulnerability.
    I would say also that, even without any of this going on 
right now, the Chinese are cutting back. They're limiting their 
soybean imports, nothing to do with any of this. They're doing 
it for their own reasons because they find that there are 
advantages to Brazilian soybeans, and they have their own 
bureaucracy doing whatever it is going to do.
    So it is a major concern. It's something that we worry 
about. I would say I'm focusing on soybeans because you brought 
it up, but it is all agricultural products that are vulnerable 
in this kind of circumstance. So it is something we have to be 
very, very cognizant of as we take any steps. I don't think 
it's a sufficient worry that you would say, therefore, we are 
not going to stand up for American intellectual property or do 
the kinds of things that we have to do. But we are trying to do 
everything in a measured--appropriate and measured way. And if 
there is retaliation, then the United States is going to have 
to take action to stick up for our farmers because we can't be 
in a position where when we do something that is not crazy or 
radical but is necessary to keep the United States' economy 
going, that somebody threatens farmers, and therefore, you 
don't do it. Right? We can't have a $375 billion trade deficit 
and not do anything to defend ourselves. But I think it's 
extremely important that we're aware of it and that we have to 
be prepared, working with Congress and others, to take 
countermeasures if it turns out that they are acting unfairly 
with respect to retaliating with respect to soybeans but also 
other agricultural products and other products too, but we 
generally tend to focus on agriculture.
    Mr. RENACCI. Thank you, Mr. Ambassador.
    Mr. Chairman, I yield back.
    Chairman BRADY. Thank you.
    The gentleman yields back.
    Ms. Sewell, you are recognized.
    Excuse me. Ms. DelBene, you are recognized.
    Ms. DELBENE. Thank you, Mr. Chair.
    And thank you, Mr. Ambassador, for joining us today. 
Digital trade is an important part of our trade agenda and 
should be a major focus area as we look to modernize our trade 
agreements. But digital trade is also making trade work for 
Americans across the country. We know that many small sellers, 
constituents in my district but across the country, are 
harnessing the power of the internet to reach customers abroad 
in ways that were really impossible a decade ago. In 2015, the 
United States led an effort to expand the information 
technology agreement, and 53 countries, including China, agreed 
to remove 201 tariffs on information and communications 
technologies, ICT, products, products like next-generation 
semiconductors that are manufactured in America and used in 
products around the world.
    So your trade agenda acknowledges the importance of digital 
trade. However, the foundation of a strong and a vibrant 
digital economy includes access to affordable ICT products such 
as smartphones and tablets. The biggest beneficiaries of low 
tariffs or low tariffs on ICT products are our students, 
entrepreneurs and small businesses who use these devices to 
innovative and to sell their goods and services around the 
world.
    So recent press reports, as we have discussed today, 
indicate the Administration is considering a $60 billion tariff 
package on consumer products, including consumer electronics 
from China, as part of the section 301 investigations 
enforcement actions, and so I wondered if you could explain for 
us how these tariffs would help make it easier for our 
businesses and entrepreneurs around the country to compete in a 
global economy.
    Ambassador LIGHTHIZER. So I guess the question is, will the 
301--because we are not putting tariffs on for any reason other 
than the assault on the U.S. information technology industry. 
So we have an issue that China has a policy of, one, forcing 
technology transfer in the case of inward bound investment; 
two, forcing companies to license technology at less than the 
economic value of it; three, state-subsidizing and directing 
massive amounts, and I think in some of these sectors $300 
billion worth of investment to take over U.S. technology firms; 
and then, four, the absolute theft of technology through cyber 
theft. So those are kind of the premises of the--the reason we 
have launched the 301.
    Now, the question is, if you go through this, you have the 
study, and you decide there's a serious problem there, the 
issue then is, what do you do? One of the things that you would 
do is impose tariffs. The way you would impose the tariffs, and 
I tried to allude to this at the beginning, is there are 
certain technology products that are under assault. You have to 
give consideration as to whether or not you would put tariffs 
on those products. Another issue is you would create an 
algorithm that would maximize the pressure on China and 
minimize the pressure on U.S. consumers. And the combination of 
those two would be the way you would get to the amount you 
have. So you would come up with the economists' study and say, 
``Here is a measured amount of what the relief should be,'' and 
then you try to find a system that allows you to impose it in a 
way that is most rational.
    And if the President makes the decision to do this--and he 
has not made that decision; we haven't done anything, but it is 
imminent that he will come to a decision--that's the way we are 
going to approach it. So you say, how does U.S. technology--my 
view is this whole system vastly benefits U.S. technology 
companies, vastly, because it protects their intellectual 
property, which is the very heart of what they are. There is no 
set----
    Ms. DELBENE. Excuse me, before we run out of time, are you 
saying then that you are taking into account in any enforcement 
action that you take that the impact it would have on 
consumers, the impact it would have on small sellers across the 
country and on innovation and entrepreneurs across our country?
    Ambassador LIGHTHIZER. Yes, we certainly have a logarithm 
that tries to minimize the negative effect on us and maximize 
it on them. It is a logarithm that is created, and it is the 
kind of thing that you would expect us to do, and if we do 
this, that's the kind of thing we will do. So, for sure, that 
is right.
    Ms. DELBENE. Thank you.
    Mr. Chair, I yield back.
    Chairman BRADY. Thank you.
    Mr. Meehan, you are recognized.
    Mr. MEEHAN. Thank you, Mr. Chairman.
    And thank you, Mr. Lighthizer, for being here today and for 
all of your continuing work in this space. I want to, for the 
record, have an opportunity to express an issue. I know we have 
talked about it, but I represent a district in which QVC is a 
business which it broadcasts around the country and is able to 
take advantage of sales of goods. Canada prevents that 
broadcast from going across the borders using something called 
a cultural exemption, and it is not clear to me that the basis 
upon which they claim a cultural exemption would apply to 
something like this. It looks really more like a way in which 
they are effectively preventing, you know, what we would hope 
would be the fair competition working to, you know, the 
distinct disadvantage of QVC.
    I know you have a lot of big issues with NAFTA, but I hope 
when we get to the crossing the t's and i's, that something 
important like this is an issue that is also on the negotiating 
table, that and the idea that products of small people that 
have small products, there is a cost associated with moving 
goods into Canada for the small, you know, producer; somebody 
in the same way may have a knickknack that they are selling in 
Canada, but there are exclusions on getting those things in 
there. I hope those kinds of things will be part of the 
negotiations but get to conclusions.
    Let me just switch, as well. I appreciate the work that you 
are doing holding China accountable for what they are doing 
dumping steel on the global stage. What concerns me and I am 
hoping that, with your language about flexibility, that there 
is a recognition that there are countries out there who are 
going to be impacted by the tariffs. And, you know, the EU can 
speak as a block. We have done things with Mexico and Canada. I 
do a lot of work with Brazil in the sense of my 
responsibilities here on the Committee and studying their 
circumstances. I look at that as the kind of a country with a 
trade surplus with the United States or the United States has a 
trade surplus with them. This question about the transshipment 
of steel, you know, this is a country who I do not believe is 
engaged in that. We have a parallel trade in the sense that a 
lot of United States coal goes to Brazil in order to be used in 
some of the, you know, the preparation of that steel, which 
comes in as a semifinished product which augments manufacturing 
here. So there are a lot of characteristics which are, I think, 
speaking to the idea that, even though people have been 
identified, that these are the kinds of considerations that I 
would hope would qualify for, you know, exclusions. I know that 
you said that there was going to be flexibility in that, and so 
I am asking if you believe that those are the kinds of criteria 
that will be relevant in the determinations about whether or 
not there is a basis for exemptions for countries like Brazil.
    Ambassador LIGHTHIZER. First of all, on your first point 
cultural----
    Chairman BRADY. Mr. Ambassador, if you can hit that 
microphone.
    Ambassador LIGHTHIZER. Sure. On the first point, the 
cultural exemption really is very often just cultural 
protectionism, and you noted their de minimis standards are 
another example of just raw protectionism. And when we talk 
about wanting to limit people using standards and warning 
labels and the like, I always think all these things can be--I 
mean, there is a legitimate case for some cultural exceptions, 
but it's not this kind of thing, and this is another example of 
protectionism, I fear.
    In the case of Brazil, there are a lot of things that would 
make Brazil an unusual circumstance. As we talked about before, 
you and I, yesterday and prior, the fact that they are a huge 
semifinished producer and the fact that they have--a lot of 
their production is basically a model, which is they send slab, 
which we would call semifinished steel, to related countries--
companies in the United States, and then that's made into 
steel. So there are things that are unique about the Brazilian 
situation that at least we know is going to be taken into 
consideration. That isn't to say that they would be successful 
in getting a remedy, of getting an exclusion. I mean, that 
ultimately is going to be a question for the President, but 
there are factors there that are important.
    Chairman BRADY. Thank you.
    Mrs. Noem, you are recognized.
    Thank you, Mr. Meehan.
    Mrs. NOEM. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for being here today. I 
represent the State of South Dakota. And this time of year, 
there is a lot of snow, it is really cold, and we watch a lot 
of basketball games, so--and my son plays basketball, so that 
is what we end up doing on a lot of winter evenings when I 
happen to be back in the State. But recently I was sitting at 
one of those basketball games and I had something happen that 
has happened all too often recently. A local farmer came up and 
sat beside me and said: Kristi, do you know what the 
Administration is thinking on trade right now? It seems like 
every time they take a position, soybeans drops 40 cents a 
bushel, and we can't hardly pay our bills today.
    And so it happens over and over again where a lot of 
farmers and ranchers are very concerned based on comments that 
come out of the Administration or positions on what could 
happen to their commodity markets. It is because 73 percent of 
our commodities that are grown in South Dakota are exported to 
Mexico or Canada, and times are hard in farm country, a part of 
America that really strongly supported President Trump. They 
have endured a 45-percent drop in net farm income over the last 
3 years, and its only indication is that it is going to get 
worse. So these farmers are very worried that the 
Administration that they supported is going to lose them a 
trade deal over provisions that may be widely unpopular.
    A perfect example might be the sunset provision, which 
requires the deal to be renewed every 5 years. In my opinion, 
trade deals are meant to foster trust between nations and 
eliminate uncertainty in order to create more opportunities to 
sell our goods overseas, and the sunset provision undermines a 
trade deal's ability to develop necessary certainty to 
encourage businesses to invest. So I am curious, Mr. 
Ambassador, if you would accept a final trade deal, a trade 
agreement without the provision in it?
    Ambassador LIGHTHIZER. In the first place, I'm not going to 
sit here and negotiate with you in public. So that is not going 
to happen. I don't think that a sunset provision has any 
negative effect at all on farm sales.
    Mrs. NOEM. You don't think it creates uncertainty every 5 
years?
    Ambassador LIGHTHIZER. No, I don't think it has any effect 
at all. In fact, I think exactly the opposite. I think when you 
get close to that fifth year, what you're going to see is what 
you saw this year with Korea. That is to say another billion 
dollars' worth of sales. So what we did is the President 
created this so-called uncertainty in KORUS, and you saw a 
billion dollars of additional sales of agricultural products in 
Korea and in--because what they want to do is get the deficit 
down, and in my opinion, what you are going to see is, as you 
approach that fifth year, you are going to see additional 
sales. So I think they are--the people who say that I think are 
exactly wrong.
    Mrs. NOEM. Do you have other examples besides that one 
instance? Because consistency, and that would be incredibly 
important that we have a background in historical examples of 
where--because all indications historically is, when there is 
uncertainty in a trade provision, that you have commodity 
prices fluctuating and uncertainty for producers, and many 
producers market their grain a year in advance, or they may 
have to hang on to it waiting for better markets, and 
uncertainty causes them a lot of heartburn. So is that the one 
instance that you could point to where it was actually 
advantageous, or is there more----
    Ambassador LIGHTHIZER. Well, to be honest, we have only 
renegotiated two agreements. We're in the process of KORUS, and 
we are in the process of NAFTA. So it's a fairly small 
universe. But clearly there is a desire on behalf of people, 
when you are going to look at the trade deficit, to get the 
trade deficit down. That is number one.
    Number two, I don't see it as an enormous amount of 
uncertainty. The idea is to have you look back at an agreement 
after 5 years and determine whether or not the agreement is in 
the interest of the United States. If it is going to be as 
popular as everyone says that it's going to be, and if it is 
going to be as great for farmers as everyone says it is going 
to be, why would we get rid of the agreement?
    Mrs. NOEM. As far as adding clarity to how important the 
sunset provision is, you don't want to be more specific on if 
you would sign an agreement or agree to finalize an agreement 
that did not have it in it?
    Ambassador LIGHTHIZER. I think it is extremely important to 
me, and I am not going to negotiate with you here in this forum 
for sure on this or any other provision.
    Mrs. NOEM. All right. Okay. Thank you.
    I yield back, Mr. Chairman.
    Chairman BRADY. Thank you.
    Ms. Chu, you are recognized.
    Ms. CHU. Ambassador Lighthizer, I know that you want to 
close NAFTA negotiations soon, but the IP chapter still has 
many outstanding issues. Stakeholders are worried that, in 
trying to quickly close the chapters, the United States will 
not honor its commitments to reform and modernize the IP 
chapters or that it may even negotiate away some of the key IP 
provisions for U.S. exporters that would in turn harm the U.S. 
economy.
    Now I represent the Los Angeles area, the heart of the 
creative industries, and I am co-chair of the Creative Rights 
Caucus, and so strong intellectual property protections are 
very, very important to me and really important to the United 
States. When movies, television shows, and songs are consumed 
around the globe, the royalties are injected back into the U.S. 
economy, and, in fact, the United States is widely recognized 
as the leader for the creative industries, the IP-intensive 
industries, these particular ones account for $6.6 trillion in 
value added and more than 38 percent of the U.S. GDP, and it 
supports 45.5 million jobs.
    While, unfortunately, Canada and Mexico don't place the 
same value on strong intellectual property, particularly 
copyright protections, as the United States does, since the 
NAFTA IP discussions have remained at an impasse for months 
now, what assurance can you give me that USTR is working to 
ensure Mexico and Canada protect U.S. intellectual property in 
their markets?
    Ambassador LIGHTHIZER. So, first of all, I would say, with 
respect to what progress has gone on until now, there has been 
an enormous amount of time spent, people have talked back and 
forth, so we understand each other. This is one of those issues 
that is never resolved until the very end of a negotiation, as 
I am sure you know. The reality is exactly as you say: Canada 
and Mexico are both takers of intellectual property. They are 
not protectors of intellectual property. Most people are not 
surprised about that with respect to Mexico, but it is 
surprising with respect to Canada. Canada has third world 
intellectual property protection, and getting them to accept 
first world is not easy. However, the speed with which we close 
NAFTA, and many people would say, if we close it in the next 
few months, it would still not have been fast, but that won't 
have any effect on where we come out on this. This is a very 
important issue. We understand it's an important issue.
    I believe there are forces in Canada who understand that 
they have to at some point become a fully developed country on 
this issue because they certainly have a lot of intellectual 
property potential. So I am inclined--there are people there 
who think they should be on our side of this issue, but I can't 
give assurances. It certainly is our position that we want to 
have strong protection for intellectual property. We think it's 
not only important for the United States but important for all 
the rest of these countries to do it. It's in their interest to 
do it.
    Ms. CHU. Well, you are saying that this is one of those 
chapters that might be saved for the last, but can you show me 
that the intellectual property provisions, historically some of 
the most technically and politically sensitive free trade 
agreement provisions, will not be negotiated away or conceded 
in the final hours of NAFTA renegotiations?
    Ambassador LIGHTHIZER. Well, it is certainly not my 
intention to do that, but I can't very well negotiate with you. 
I wouldn't negotiate with her; I can't negotiate with you 
either. It just wouldn't be fair. But this is a very important 
issue for us. We are completely in your camp, and we hope that 
you call and say what a great job we did when the time is over. 
I know you'll call.
    Ms. CHU. Okay. Well, on another subject, one of the keys to 
ensuring our trade agreements is strong enforcement 
particularly of our labor obligations. Now, we have agreements 
with Colombia, the Dominican Republic, Peru, and Honduras, and 
there have been labor violations that have been filed in each 
one of these countries. In fact, there are numerous violations 
that include violence against unionists, inadequate labor 
inspections and enforcement actions and so forth, and yet, in 
most of these cases, there hasn't even been an update from the 
Administration. What are you going to do to enforce these labor 
agreements?
    Ambassador LIGHTHIZER. Well, we have provisions in each of 
the trade agreements with these people that have labor 
provisions, and we are in the process of following the process 
that we have to follow for dispute settlement in those cases. 
It's clearly something that we brought to their attention. It's 
very troubling. It's a very troubling trend, and unfortunately, 
it is not just these countries. It's in a lot of other 
countries in that part of the world. So it's something that we 
agree with you on, and we are in the process of prosecuting 
these cases following the process that is set out in the 
agreement.
    Ms. CHU. Thank you. I yield back.
    Chairman BRADY. Thank you, Mr. Smith. You are recognized.
    Mr. SMITH OF MISSOURI. Thank you, Mr. Chairman.
    Thank you, Ambassador, for taking your time out and being 
here today. The folks in southeast and south central Missouri 
are very optimistic about the future. If you look at the past 
year under President Trump's leadership, we passed a $5.5 
trillion dollar tax cut for American farmers and small 
businesses. We have repealed hundreds of burdensome regulations 
and created over 1.6 million new jobs. Speaking of new jobs, as 
of just the day after the President did his tariffs on aluminum 
and steel, I was in southeast Missouri announcing 450 new jobs 
with a new aluminum smelter opening up. So these are real 
changes and real aspects that are affecting real people that 
have not always been on the right side of victory.
    The next step for us is to go out and negotiate the best 
possible trade deals so that American farmers, businesses, and 
workers win around the world. We couldn't have a better person 
leading the way. The President wrote a book on creating great 
agreements. In the book he quoted: The worst thing you can 
possibly do in a deal is to seem desperate to make it. The best 
thing you can do is to deal from strength, and leverage is the 
best strength you can have--on page 53, in fact. The President 
knows where our strengths are. They are in our hardworking 
people, our superior goods, and our world-leading services.
    Mr. Lighthizer, you know this as well, and the task before 
you in NAFTA and potentially KORUS and other deals is not an 
easy one. While those are the hot topics, I want to talk to you 
about some unfair trading practices.
    I do want to applaud you and the President for its trade 
enforcement actions in the World Trade Organization. Like I 
mentioned before, America is ready to compete as long as the 
playing field is level. But unfair trading practices 
disadvantage American farmers. To ignore violations of trade 
agreements does not strengthen free trade. In fact, it weakens 
free trade. There has been mounting evidence that certain 
countries are ignoring WTO obligations by providing price 
supports to farmers well above the commitments they agreed to. 
It results in surplus production that ends up in the world 
markets displacing sales of U.S. farmers. It is not 
conservative to allow for rampant breaches of contracts. It is 
just wrong.
    In what ways is this Administration leaning into the WTO to 
ensure that these countries play by the rules?
    Ambassador LIGHTHIZER. First of all, I agree with 
everything you've said.
    Mr. SMITH OF MISSOURI. Well, then I must be right. That is 
great.
    Ambassador LIGHTHIZER. There are some people that disagree 
with me from time to time in this Committee. So I completely 
agree. You are absolutely right. We are seeing a proliferation 
of agriculture subsidies. We just have. In the last ministerial 
round we had in Bueno Aires, I ended up hanging up the round or 
the negotiations because people wanted to--their idea of an ag 
negotiation was a negotiation wherein countries could have more 
subsidies rather than fewer subsidies. They called this food 
programs, but the reality is what it was going to do was going 
do nothing but encourage more subsidies in agriculture. So we 
have gone all this far to try get ourselves in a market 
environment, and we said: No, we are not going to be in a 
position to change that.
    And it really was India who was very much a new subsidizer.
    Mr. SMITH OF MISSOURI. With their rice and the grains?
    Ambassador LIGHTHIZER. You're exactly right. And they were 
very much in favor of having negotiations really, in my 
judgment at least, about increasing subsidies. So we said: No, 
we are not going to do that.
    Every time we find a situation, we bring a WTO case. The 
WTO, however, is not the greatest forum for enforcement of 
these kinds of actions, and it's always a problem if somebody 
does subsidies or dumps. In our market, we have tools to deal 
with that. If they're hurting us because they are doing 
something as a result of subsidies in their market or in a 
third market, the tools are not that good so you have to go to 
the WTO, and it is a cumbersome far from flawless forum. So we 
are aggressively bringing these cases. We completely agree with 
you. We are using the tools we have at hand, and hopefully we 
can improve those tools and make a difference.
    Mr. SMITH OF MISSOURI. Please continue. Thank you.
    Chairman BRADY. Thank you.
    Mr. Rice, you are recognized.
    Mr. RICE. Thank you, Mr. Chairman.
    Thank you, Ambassador Lighthizer, for being here today. I 
have told you publicly and privately that your presence in the 
Administration and Mr. Ross' are two of the main reasons I have 
so much faith in this Administration. I appreciate a man of 
your experience taking on this job, and it is so important for 
the American worker. I am a big believer in American 
competitiveness. I think our Tax Code went a long way toward 
helping our economy be competitive in the world, and trade is 
very important in American competitiveness; obviously also 
infrastructure, a lot of the things that the President--
immigration, a lot of the things the President is trying to 
work on. If we can get two or three more of those notched, our 
economy would be well poised in the world.
    With respect to the tariffs, my opinion is, as you said, 
nobody wins in a trade war, but nobody disagrees that there are 
people who have been bad actors in the world, China 
particularly, and we have ignored it for too long to the 
destruction of the American middle class, and so we just can't 
accept that anymore. We have to respond, and it needs to be 
targeted, and I appreciate your efforts in that regard.
    But I wanted to talk a little bit more about NAFTA. You 
know, I have been to Montreal. I mentioned Montreal. I have 
been to Mexico City. I met with Mexican officials and 
regulatory people and business people and chambers of commerce. 
And in Canada, the same. And in America, the same. And I 
haven't met anybody who doesn't think that NAFTA doesn't need 
to be continued and that it doesn't need to be modernized. 
Everybody is pretty much on board. And the same topics are 
brought up, the same four or five things you have raised today: 
rules of origin and de minimis rules and all these things. So 
it sounds like you are making great progress there, and I just 
am comforted having been in both of those places that everybody 
recognizes that this modernization process is a good thing and 
needs to be pursued.
    But I wanted to zero in on one question that was asked to 
you at the American Chamber of Commerce in Canada, and I loved 
your response to it. And I just wanted to ask you so you could 
respond publicly to everybody. What would you see as a win in 
NAFTA? What is your goal? What are you shooting for when you 
are trying to renegotiate this? Can you explain that to the 
public?
    Ambassador LIGHTHIZER. Can you give me a hint what I might 
have said? If it was such a good answer, I don't want to change 
it at this point. Look, from our point of view--first of all, 
we have to have--we have to have an agreement that is good for 
all three countries, right? I mean, we have to have that.
    Secondly, we want an agreement that is going to end up 
getting these trade deficits down. We have large trade 
deficits, and it has to move, has to move more jobs to the 
United States and create better jobs, not only more jobs but 
higher paying jobs. You know, I am in the group that thinks 
what we really need is a little bit of wage inflation. So I 
want to do something--in the first place, I think it has to be 
in everyone's interest, or you won't get an agreement, but I 
want it to be something that gets the trade deficit down. I 
want it to be something that creates jobs, that moves some of 
these jobs back to the United States, and they're all not 
coming back. We all understand that completely. But this notion 
that none of them are coming back has been proven wrong by all 
of you because you have seen what happened after your tax bill. 
It has moved jobs back. It has. So jobs, wages are what the 
President is focused on, that's what I am focused on, and I 
think that this agreement will lead to efficiency, and it will 
lead to higher wages and more jobs in the United States.
    Mr. RICE. That is pretty much the same answer you gave in 
Canada, except you said one other thing: I want to eliminate 
incentives to offshore.
    All those are great objectives. I want to point out one 
anecdotal thing when we were in Canada having lunch with the 
Canadian American Business Council. And a tax consultant from 
Canada said: Where we have clients that have positions in 
America and in Canada, we are advising them to ramp down in 
Canada and ramp up in America because of the tax reform bill; 
it seems we have lost our competitive advantage.
    And under my breath, I said: Yes. So I appreciate very much 
your efforts to lift the American middle class. It is smaller. 
It hadn't had a raise since 1990, and I think tax reform and 
your efforts will change that.
    Thank you, sir. I yield back.
    Ambassador LIGHTHIZER. Thank you very much.
    And I would like to think--going to get credit, you know, 
some of the credit for this tax bill. They are going to say: 
Look, the trade deficit went down, and I am not going to give 
you any credit when that happens. It will be entirely the trade 
policy.
    Chairman BRADY. We know how that works, Mr. Ambassador.
    So, Mr. Blumenauer, you are recognized.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you. I appreciate your patience here 
for the last 3 hours dealing with our questions and comments. I 
must say that I appreciate the role that USTR has assumed on an 
area that I have been working on for the last 10 years dealing 
with illegal logging, particularly what is going on in Peru. It 
has been sort of a struggle. I thought it was harder than it 
should have been in the last Administration, but I appreciate 
the work that you and your team have done. This, as you know, 
is not just an issue of enforcing trade obligations. Illegal 
logging damages the environment. It undercuts the rule of law 
in developing countries, and it has negative impacts on 
Americans who play by the rules, and I just wanted to say how 
much I appreciated that. And I do want to identify myself with 
comments that my friends Mr. Thompson and Mr. Doggett mentioned 
earlier. I won't take my time or yours, but I am concerned 
about having American wine industry, particularly in the 
Pacific Northwest, on a level playing field, and I am concerned 
about American interference with the ability of other countries 
to protect the health of their citizens, and I appreciate there 
are nuances there, but historically, I think we could have done 
more to be more open. I think it is a larger issue, and I hope 
that we can collectively focus on this because I think it is 
very significant.
    I listened to--my friend from Missouri referenced ``The Art 
of the Deal'' or some such publication by the President. I 
think there is a pretty significant difference when you are 
negotiating in real estate when you can, as he states in his 
book, exaggerate as you can go bankrupt and leave other people 
holding the bag when things collapse and move onto the next 
project. We are talking about the American economy. We are 
talking about our role in the world, and I think, for example, 
exaggerating or making things up in a discussion with the head 
of the State of an ally and admitting it publicly doesn't help 
us on the world stage. And I identify with some of my 
colleagues who say we feel more comfortable knowing that you 
are in the role that you are in. You have broad experience and 
I think understand some of these dynamics.
    And it is in that context I would like to just raise one 
point with you, and that deals with some of the impacts of the 
imposition of tariffs under the 301 with China, particularly as 
it affects retail trade. And Mr. Reichert and I have some 
involvement with companies that are involved with apparel and 
footwear, and we have been working for a long time to try and 
see if we can have some more rational policy as it relates to 
tariffs.
    As you well know, tariffs are not just magically imposed on 
somebody else. It is a cost of doing business. It affects what 
happens with American manufacturers and retail. And they are 
ultimately paid by the consumer, and we have a system now that 
is tilted against low- and moderate-income people. When you 
look at clothing and footwear, the percentage that is paid at 
the lower end is really quite outrageous, and I am hopeful that 
we don't rush into something with China that ends up actually 
making it worse. So I am hopeful that this is an area that can 
be entered with great sensitivity.
    Mr. Chairman, I would request unanimous consent to enter 
into the record correspondence addressed to the White House but 
also to the Ambassador and the Committee that speaks to this in 
terms of tariff, understanding the dynamic, and I wondered if 
you had any observations----
    Chairman BRADY. Without objection.
    [The submissions for the Record of Hon. Earl Blumenauer foll
ow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. BLUMENAUER. Thank you, sir.
    If you could offer any observations that might make some of 
my constituents feel better.
    Ambassador LIGHTHIZER. I would say, first of all, when you 
talked about the quote from ``The Art of the Deal,'' all I was 
thinking was I hope I don't look desperate, so I had a 
different take on it than you did. We understand and I kind of 
went through this, if there are tariffs, one, you have to 
establish through an algorithm what the amount is and use as 
much science as you can; and, two, when you pick the products 
on which you would put a tariff, you start with a logarithm 
that tries to maximize the effect on China and minimize the 
effect on U.S. consumers. And if you think about products on 
a--you have kind of a line over here of products where they are 
minimally a problem for U.S. consumers and maximally a problem 
for Canada. Now you can't always follow that, but that is one 
of the big factors, and that is part of the logarithm, and we 
are very--we are aware of that and are cognizant of it. And if 
we end up doing this, it won't be perfect, but you will see a 
methodology which you will say, yes, that is a sensible----
    Chairman BRADY. Time has expired.
    Mr. Schweikert, you are recognized.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman. Mr. Ambassador, 
first, just a quick comment on sort of a global basis and 
particularly more for even some of your newer staff. Long term, 
some of us have a fascination of what worldwide trade can do, 
particularly considering our demographic issues. You know, as a 
country, as we are getting much older, we are going to need 
populations of folks in the prime consumer ages for us to sell 
stuff to. So that is always in a long term, there are some 
great articles about, you know, trade actually may help us with 
some of our demographics that we are facing, and it is just 
math.
    Mr. Ambassador, I first want to thank you on the de 
minimis. The last time you and I had an opportunity to talk 
about it, you not only got it; you were an amazing advocate. 
Particularly, as some of the other countries we are presently 
negotiating with are listening to this hearing right now, there 
are many of us on this Committee that are absolutely just 
fixated on the de minimis value with Mexico and Canada and the 
inequities that creates. Do you think they are hearing that 
part of the discussion?
    Ambassador LIGHTHIZER. I certainly hope so. It's one of 
those issues where anybody who starts focusing on it, it 
becomes more and more important to them because it doesn't--it 
affects a lot of product, and the more you study it, the more 
it's bothersome of products coming into other countries in 
bulk, being broken up into smaller things and being shipped. 
The fact that most of the Canadian--one of the articles I read 
is most of the Canadian online sellers sell far more in the 
United States than they do in Canada, and we can't go in that 
direction essentially at all. I mean $20 versus $800 is just 
ridiculous. It's a hugely important issue. It affects an 
enormous number of sectors. So it is something that is very 
important to us. And I--look, everybody knows the right answer 
is to be above $20. There's no one that can argue that. You can 
argue 800, but it has to go up.
    Mr. SCHWEIKERT. And you make a--look, for those of us being 
a border State, Arizona, where we are trying to set up trade 
hubs and inland ports, and yet if you look at the current de 
minimis, particularly with our trading partner of Mexico, it is 
all going to be inbound because our ability for small 
retailers, for high-tech commerce to go upbound, it just 
doesn't work.
    Just because time is so precious, I am one of those States, 
communities, because being in the desert Southwest, has intense 
concern on seasonal tariffs just because, if you actually sort 
of game theory it, it creates distortions and then retributions 
on the distortions. And if you actually start thinking about 
when certain crops come in and the seasonalities, it ends up 
becoming very, very ugly. And particularly for those of us who 
do a lot of cash crop growing because we--Arizona provides the 
winter lettuce crop for the country, and if you are doing 
seasonal tariffs, the tails of those tariffs end up creating 
some real pricing distortions, particularly for our consumers 
on both sides of the border.
    Ambassador LIGHTHIZER. So you are against the proposal.
    Mr. SCHWEIKERT. Absolutely livid.
    Ambassador LIGHTHIZER. There are an enormous number of 
products that would be subject to these that come in from 
Mexico through Arizona, and so it's basically--it is the 
interest of importers in that State, and I just wanted to make 
sure that I was understanding. I have heard the argument, you 
know----
    Mr. SCHWEIKERT. It actually gets a little more complicated. 
If you are doing certain types of cash crops and you have just 
had a seasonal tariff that benefitted the growing season in one 
part of the country and then it falls off, all of the sudden, 
you are on the pricing fall side, and so it is just that if you 
think of that constant moving of that sort of bell curve.
    Last thing, and, look, you have spoken about this 
elegantly, though I substantially disagree with some of the 
characterization, ISDS. And I know so often rhetorically we 
have speakers that will say, ``Well, it is sovereignty,'' but 
if you actually really walk through the mechanisms, it 
absolutely is not. It is to that issue. It doesn't rewrite our 
laws or the Mexican laws or the Canadian laws. It is not--it is 
not a precedent for the next case. Ultimately, it is--think of 
it more like, if we were to ever lose, which we have not, you 
would have to pay compensation, but it does not rewrite your 
sovereign statutes. And so when people use the sovereignty 
quotes, I think it is an absolute distortion of how it actually 
works.
    Thank you, Mr. Ambassador.
    Chairman BRADY. Time has expired.
    Mrs. Walorski, you are recognized.
    Mrs. WALORSKI. Thank you, Mr. Chairman.
    Ambassador, it is good to see you. It will come as no 
surprise to you I want to talk about 232, just a couple of--
point of clarifications. So it is my understanding, and I just 
wanted you to confirm this, that you are considering 
participating in the Global Forum on Steel Excess Capacity that 
is under consideration?
    Ambassador LIGHTHIZER. I mean, we do participate, and one 
of the things we've asked people who might get an exclusion is 
that they participate and help us with that, and most of these 
countries do, by the way.
    Mrs. WALORSKI. The recent Global Forum on Steel Excess 
Capacity held a first minister-level meeting last November, but 
you were not there, correct?
    Ambassador LIGHTHIZER. That's correct. I had no deputies in 
place at that time, so I was staying here.
    Mrs. WALORSKI. I understand. Will you in the future attend 
those yourself since the rest of the world is looking at this 
with incredible significance and bringing their ministerial 
level folks to the table?
    Ambassador LIGHTHIZER. Well, I mean, I wouldn't guarantee--
I would say I think, at that meeting, I think there were maybe 
three ministers. So it might have been a ministerial level, but 
I think about 30 countries did not send ministers and about 
three did. And the three that did----
    Mrs. WALORSKI. But the one that I am concerned about is you 
and this country.
    Ambassador LIGHTHIZER. Well, I understand, but I just want 
to suggest--the idea was that it was like this ministerial 
level. So you had Europe send one because it was basically 
around the corner; you had the German minister who doesn't have 
competence in the area, but it was good to be there; and I 
think there may have been one or two others.
    Mrs. WALORSKI. Yes, but the reason I am asking the 
question, Ambassador, is because while all of those countries 
have irons in the fire here, you are the Ambassador that is 
going to go forth under all these rules in 232, and I want you 
to do as best as you can for our Nation and for my district, 
and that is my concern. And I believe that you can, and I 
believe that you will.
    I want to switch gears, though, really quickly to this 
issue of retaliation. In my district in northern Indiana, with 
the second largest concentration of manufacturing jobs in the 
country, there is a whole host of ag that I am concerned about: 
corn, soybeans, dairy, pork, poultry, beef, eggs, tomatoes, and 
the list goes on.
    But half of the soybeans grown in Indiana are exported to 
China. Honeywell makes brakes and avionics in South Bend that 
go into Boeing airplanes. China is threatening retaliation 
against both. In fact, today China's state-run Global Times ran 
an article alleging that the United States is dumping soybeans 
into China and calling for strong restrictive measures.
    Corn and motor boats are exported from my district to the 
EU. Both of those are the EU's retaliation list.
    Setting aside the tariffs, there is an incredible amount of 
anxiety in my district over the threat of retaliation. That 
anxiety is shared regardless of industry because manufacturers, 
suppliers, farmers, and workers will be affected. Are you 
considering the devastating effect that retaliatory measures 
could have, especially on small business and family farms that 
absolutely do not have the resources to absorb big losses?
    Ambassador LIGHTHIZER. Yes.
    Mrs. WALORSKI. In what way?
    Ambassador LIGHTHIZER. We are gaming out what would happen, 
what the most likely areas are that you would have retaliation, 
what kind of things that you would do. We can't be in a 
position where we take no action because of threats of 
retaliation. That is how you end up having an $800 billion 
trade deficit, which cost literally millions and millions of 
jobs in America.
    But there is a legitimate threat. And as I have said a few 
times here today and many times in the past, agriculture is 
always on the front line of retaliation. I said that when I 
first testified. Members would say to me: Do you think we 
should be concerned? I said: If you're in agriculture, you 
always have to be concerned.
    Anything that happens, they are going to figure we can get 
it and do something on agriculture.
    It's an unfair situation, but it's one that we have to come 
to grips with. You have to think about counterretaliation. You 
have to think about programs for farmers who are in this 
situation. There are a lot of things that are outside of my 
realm that have to be considered. But it's a serious problem, 
and we are very aware of it.
    Mrs. WALORSKI. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman BRADY. Thank you.
    Ms. Sanchez, you are recognized.
    Ms. SANCHEZ. Thank you, Mr. Chairman, and to Ambassador 
Lighthizer for joining with us today to talk about the Trump 
administration's trade agenda.
    For many years now, Democrats have been talking about the 
impacts that trade agreements have on American workers, and we 
lament the fact that they have caused countless good-paying 
American jobs to be shipped overseas, most notably in the 
manufacturing sector. Those jobs are really the bedrock of the 
American middle class and critical for our economy. Those jobs 
have been lost to countries whose labor standards are 
impossible for our workers to compete with on a level playing 
field.
    I think that a lot of us were really hopeful when the 
President talked about bringing American manufacturing jobs 
back and creating new jobs through renegotiating our existing 
trade deals. This Administration time and time again has said 
that they want a level playing field for American workers, but 
I have yet to hear the Administration lay out a clear vision 
for how you plan to achieve this goal.
    It is no secret that we met with Secretary Ross last year. 
When I pressed him on that issue, ``What is your strategy for 
bringing back American jobs or maintaining American jobs 
here,'' the only answer that he provided us was that they are 
going to renegotiate the rules of origin for autos. That was 
it. That was his single sole idea or plan for bringing back 
manufacturing jobs.
    I think we have to do a lot more than that if we are going 
to create the kind of jobs that we want here and ensure that 
American workers and industries are not on an unlevel playing 
field, first of all, and, second of all, in a race to the 
bottom for wages and working conditions. Workers in Mexico earn 
a pittance of what U.S. workers make, and is it any wonder that 
we are losing jobs to Mexico? I think Canada, as well, as a 
vested interest because their labor standards are similar to 
ours.
    Mr. Ambassador, I would like to know, the President has 
said that he will bring back jobs through renegotiating trade 
deals, what pieces of NAFTA specifically are you negotiating 
that you think is going to deliver on that promise?
    Ambassador LIGHTHIZER. Well, first of all, the most 
important thing that has been done so far is to pass the tax 
bill, so that was a very important part, in terms of bringing 
jobs back.
    Ms. SANCHEZ. I am not talking about the tax bill. I am 
talking about renegotiation of NAFTA.
    Ambassador LIGHTHIZER. I understand that.
    Ms. SANCHEZ. I want to know, specifically, what parts of 
NAFTA would you renegotiate to ensure that U.S. jobs stay in 
this country or that we bring back jobs that we have lost?
    Ambassador LIGHTHIZER. I think the regulatory improvements 
you have made helped also.
    Ms. SANCHEZ. I am not talking about regulatory--can we 
stick to the subject matter of this hearing, please.
    What pieces of NAFTA will you renegotiate to ensure that we 
keep U.S. jobs here and bring back manufacturing jobs that we 
have lost?
    Ambassador LIGHTHIZER. Well, I would say the first thing is 
the rules of origin. The rules of origin not just for----
    Ms. SANCHEZ. Okay. Aside from auto rules of origin, what is 
the plan?
    Ambassador LIGHTHIZER. We have a plan for labor standards. 
We have a plan for----
    Ms. SANCHEZ. What is the plan for labor standards? Lay that 
out for me. Specifics.
    Ambassador LIGHTHIZER. Well, in the first place, there is a 
limit to how much I am going to talk about this in a public 
forum. I'm sure you can understand that, since I am involved in 
negotiations with two countries.
    Ms. SANCHEZ. I understand that.
    Ambassador LIGHTHIZER. All right. Good.
    I have already talked about this a couple of times, but 
I'll do it again.
    It is our view that U.S. workers have the right to expect 
that collective bargaining agreements in Mexico are the result 
of secret ballots and legitimately verified to be such. There's 
a whole series of processes that were involved with in 
negotiating that element, including even today. So that's a 
hugely important issue. And the objective is to try to get 
wages up in Mexico, which makes the United States more 
competitive, but also creates customers for the United States.
    Ms. SANCHEZ. So would it be fair to say that you are 
seeking labor standards with our trading partners that are on 
the level with U.S. labor standards, or do you intend to bring 
U.S. labor standards down to the lowest common denominator?
    Ambassador LIGHTHIZER. Did I say anything at all about U.S. 
labor standards? If I did, I misspoke. We're doing nothing 
about U.S. labor standards.
    Ms. SANCHEZ. I am just asking a simple question.
    Ambassador LIGHTHIZER. And the answer is we are dealing 
with the Mexican labor standards. We are not dealing with the 
United States labor standards.
    Ms. SANCHEZ. So is it fair to say you are trying to raise 
the standards of our trading partners comparable to that of the 
United States? Is that what I am hearing?
    Ambassador LIGHTHIZER. No. What I'm trying to do is raise 
the standards in Mexico.
    Ms. SANCHEZ. So you raise it, but not to U.S. standards, 
not that high, somewhere in between?
    Ambassador LIGHTHIZER. It is not my point.
    What I'm focusing on is the basic elements of what you 
expect in basic labor law. That's what I am talking about. I am 
not talking about U.S. standards.
    Ms. SANCHEZ. ILO conventions of labor law?
    Chairman BRADY. All time has expired.
    Ms. SANCHEZ. Mr. Chairman, if I could simply just make the 
request that we receive the answer to the last question in 
writing.
    Chairman BRADY. In writing, absolutely.
    Ms. SANCHEZ. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Chairman BRADY. Thank you, Ambassador.
    I will tell you, I see significant wins for the United 
States in energy, agriculture, telecommunications, digital 
trade, services, technology, and manufacturing because you are 
being so aggressive in these areas, and we appreciate the work 
there.
    Mr. Curbelo, you are recognized.
    Mr. CURBELO. Thank you, Mr. Chairman.
    Welcome, Ambassador. Thank you so much for your time.
    I first want to say I was thrilled to hear earlier your 
statements regarding engagement with Argentina and Brazil. I 
think that our country, in many ways, has been absent in our 
own neighborhood over the last few decades. And I think in both 
those countries, we are seeing very positive developments. This 
is very exciting for south Florida, as you can imagine, because 
we are poised to grow and to benefit greatly from further 
engagement in the region, specifically with countries like 
Brazil and Argentina.
    On a couple issues that have been discussed extensively 
here, I want to associate myself with the comments made by 
Chairman Brady and others on ISDS. I think it is an important 
tool for American companies, for American stakeholders, and 
also with Chairman Johnson on the sunset clause.
    I do believe that one of the major components to a 
successful business and to enterprise generally is certainty. 
And I think that if companies are operating under the threat of 
the expiration of a deal, that could inhibit their ability to 
invest. And, by the way, it is not just American companies' 
investments abroad, but the investments of Canadian and Mexican 
companies in the United States.
    So I really hope that we have a strong provision to review 
the deal, to revisit the deal, to make sure we keep it up to 
date, which we haven't done over the last 25 years, but 
certainly not always to have the threat of a potential 
expiration.
    Another issue I wanted to bring up is the effect trade 
agreements have on the farmers of my south Florida district. 
Many people not from south Florida might be surprised to know 
that Miami-Dade County is one of the largest ag producing 
counties in the State. We have avocados, mangos, tomatoes, and 
hundreds of specialty crops. And because south Florida is 
significantly warmer than even central parts of the State, 
crops can be grown year-round. For example, Ambassador, it is 
not snowing in south Florida today, something that we are very 
pleased with.
    So, as we renegotiate NAFTA, I am concerned with how the 
deal will affect the farmers across Florida, but specifically 
with how it will impact the agriculture community I am honored 
to represent in south Dade. I know the Administration has been 
advancing a seasonable and perishable proposal that could help 
provide relief to our growers from Mexican dumping by making it 
easier to prove entry.
    Could you give us a brief update on where we are and what 
the nature of the Administration's commitment with this 
provision is at this time?
    Ambassador LIGHTHIZER. Well, it is a provision that's very 
important and not without its controversy.
    The point that I try to make is that while we have a lot of 
agricultural sales in Mexico--with Mexico, we have an 
agricultural sales deficit of about $5 billion. So we're not on 
the positive side of our agricultural sales with Mexico.
    The area that is most affected negatively are the 
seasonable and perishable fruits and vegetables, as you 
suggest. So we have a provision that we have designed that 
allows those people, only in cases where there is unfair trade, 
to take advantage of the unfair trade statutes. Until now, they 
are essentially precluded by the nature of the way the statutes 
are taken up.
    So we have put forward this proposal. It has not been 
wildly popular with our trading partners, I would say in all 
candor at this point. But it's an important provision, and one 
that we are negotiating on right now.
    Mr. CURBELO. Thank you, Ambassador. I encourage you to do 
the best you can in this area. We know that the specific 
proposal you have put forward may not be able to make it, but I 
think anything that improves the status quo for these farmers, 
which have been decimated, quite frankly, would be something 
that we would welcome.
    And I am more concerned with fairness and less concerned 
with this deficit issue. I always tell people: I have a 
deficit. My family has a trade deficit with the supermarket, 
and we want to keep it that way. We are not interested in 
changing that.
    I think the key question is: Is it fair? And are American 
companies, in this case American farmers, being given the same 
opportunities to compete as Mexican farmers and as Canadian 
farmers? And I think in this area of seasonable products, it is 
certainly not the case.
    So I appreciate your commitment to this provision and your 
commitment to the farmers of south Florida, which are counting 
on us to improve the status quo.
    Thank you, Ambassador.
    I yield back.
    Chairman BRADY. The gentleman yields back.
    Mr. Bishop, you are recognized.
    Mr. BISHOP. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for being here today, and 
for your time and effort. I know this is a long hearing, and 
you have waited all this time. I appreciate it.
    NAFTA is vitally important to the State of Michigan, the 
State that I represent. It is important to our economy, and it 
is important to the U.S. automakers.
    I want to applaud your efforts for the way you have 
conducted yourself. I had the opportunity to attend the last 
round in Montreal. It is evident to me and to all of us that 
you have done a spectacular world-class job in representing the 
United States and in preserving, to the extent that you can, 
the great relationship that we have with Canada and Mexico, so 
I want to thank you for that. I also want to thank you for your 
efforts to update and improve NAFTA so that it better 
represents the 21st century global economy.
    I would like to continue, if I could--the subject has been 
raised ad nauseam here, but important--it has to do with the 
rules of origin. And the concern I have specifically, on behalf 
of the U.S. automakers, is that there is substantial concern 
that the proposed rules of origin will jeopardize their global 
competitive position and that, furthermore, will likely cost 
vital U.S. manufacturing jobs. And that is especially true in 
the State of Michigan.
    Now, I know this is high on your mind. You have indicated 
it in your original testimony. You said that the purpose of the 
rules of origin proposal was to move more jobs back to the 
United States. But are you concerned that the aggregate impact 
of the proposed rules of origin might have the exact opposite 
effect than what you intended? And also, we are also aware that 
the Canadian Government introduced, in the last round in Mexico 
City, a modified version of their proposed rules of origin. I 
wonder if you might elucidate on that proposal and also whether 
or not Mexico has its own proposal regarding the rules of 
origin.
    Thank you, sir.
    Ambassador LIGHTHIZER. Thank you, Congressman. And thank 
you for your kind remarks.
    The rules of origin are extremely important, as you say. 
Our objective is to bring more jobs back to Michigan, and we 
think that the direction that we're moving will have that 
effect.
    The United States had a proposal. Canada had a proposal, I 
think, and Mexico has been engaged on the issue. And I think we 
are in a position where we're finally starting to converge. We 
are working very closely with the U.S. industry. I had people 
on Monday, and I think maybe even until yesterday, in Detroit 
trying to work out the details of this kind of an agreement.
    Once again, I can't really say exactly what is going to end 
up happening, but I think we're in a pretty good place. But our 
objective is to stop the hemorrhage of jobs from the United 
States and to bring jobs back to the United States. That's our 
objective.
    The way we analyze this thing is that Canada and Mexico 
basically sell their cars to the United States. So, in the case 
of the United States, we sell 900,000 cars to Canada, and they 
sell almost 2 million to us. In the case of Mexico, they sell 
us, I don't know what the numbers are, but maybe 2.3 million, 
and we send them 200,000. So basically these are industries 
that are designed to sell cars in the United States.
    It is not unreasonable for us to say: If you are going to 
do that, we ought to have rules of origin to get some fair 
share of that manufacturing in the United States.
    So how much are you actually working with? In the case of 
trucks, it's 25 percent. We have an enormous amount of 
leverage. In the case of cars, it is 2.5 percent. So that is 
$900 a car. That is what we are talking about.
    Our view is that if you are going to save $900, it is not 
unreasonable to say some part of that should come back in 
employment in the United States. At some point--you're right--
you make it to the point where they can't compete, and clearly, 
we are aware of that. That's not our objective. Our objective 
is to sort of find that sweet spot where we get some of these 
jobs back.
    We are the market--we can't forget that--we are the market 
for all these cars. It is not like they are going north and 
south, except in small numbers.
    Mr. BISHOP. Thank you, sir. I appreciate your sharing that 
information with us.
    I agree with you 100 percent, the goal is to try and get as 
many jobs back to the United States. We like to hear that in 
Michigan. The number one part of our economy is our 
manufacturing sector, especially in autos. So we appreciate 
your efforts, and we appreciate your attention to this. And I 
am glad to hear that your team has been in Detroit to talk to 
our folks.
    Thank you, sir.
    Mr. Chairman, I yield back.
    Chairman BRADY. The gentleman yields back.
    Mr. LaHood, you are recognized.
    Mr. LAHOOD. Thank you, Mr. Chairman.
    And thank you, Ambassador Lighthizer, for your service to 
our country.
    Ambassador, my district is the eighth largest ag district 
in the country in terms of corn and soybean production. We have 
some of the most fertile farmland in the entire world.
    There is real concern with farmers and agriculture folks on 
the Administration's position on NAFTA and withdrawal. A couple 
statistics that I think are important: 98 percent of the corn 
that Mexico imports comes from the United States, much of it 
from the Midwest; about one-third of the products produced in 
Illinois go to Canada or Mexico; about 35,000 jobs tied 
directly to NAFTA. And that is just in agriculture. By the way, 
agriculture is the number one industry in the State of 
Illinois.
    And when I have heard repeatedly about withdrawal, the 
groups that I work with--National Pork Producers Council, 
American Farm Bureau Federation, National Cattlemen's Beef 
Association, National Corn Growers Association, Corn Refiners 
Association, American Soybean Association, Americans for 
Farmers & Families--all agree that withdrawal is not an option 
here.
    I guess my question to you, Ambassador, is, do you know any 
ag groups that think withdrawal is the right approach?
    Ambassador LIGHTHIZER. Our objective is not to withdraw. 
Our objective is to get a good and improved agreement. I don't 
know of any ag groups that want to withdraw, but I don't know. 
There may be some out there. I am not aware of them, no.
    But our objective is not to withdraw either. Our objective 
is to get the best agreement we can. It's an important 
agreement. It's whatever it is--we always say, Mr. Chairman, 
it's a tradeoff. The reality is, last year, it was like $1.1 
trillion or $1.2 trillion worth of trade. There is an enormous 
amount of trade between those three countries, and our 
objective is to figure out a way to have disagreements be more 
beneficial to the United States, and that certainly means more 
benefits to American agriculture.
    Mr. LAHOOD. Thank you. I appreciate those comments on that.
    And I, for the record, will submit an article from Farm 
Week in February that is titled ``NAFTA is American farmers' 
Lifeline.'' And in there, they talk about, if the United States 
quits on NAFTA, it quits on its farmers.
    And the other thing is, I know the President recently 
tweeted: ``NAFTA is a bad joke!''
    Do you agree with that sentiment?
    Ambassador LIGHTHIZER. I have no idea about that quote.
    Mr. LAHOOD. Well, it was a tweet.
    Ambassador LIGHTHIZER. I have no knowledge. I didn't see 
that.
    Mr. LAHOOD. Well, I would just tell you: That causes a lot 
of concern, Mr. Ambassador, when farmers--and, by the way, the 
farmers in my district and in rural America overwhelmingly 
support the President and continue to support him, particularly 
in all the things we have talked about today. But I can't 
emphasize enough the concern with farmers in rural America when 
it comes to NAFTA.
    Let me switch subjects here.
    Rules of origin has been talked about a lot here. And when 
we think about the constituencies that we all deal with, Mr. 
Ambassador, can you name a constituency that agrees with your 
position on rules of origin? For instance, Chamber of Commerce, 
National Federation of Business, Heritage Foundation.
    Ambassador LIGHTHIZER. How about the AFL-CIO, do they 
count?
    Mr. LAHOOD. Okay. That is fair. So AFL-CIO. Any business 
groups that you can cite?
    Ambassador LIGHTHIZER. Listen, I don't know. There are 
business groups all over the place. I have no idea where they 
are on rules of origin.
    Mr. LAHOOD. Could you submit those for the record, whatever 
those are?
    Ambassador LIGHTHIZER. No, I can't. I don't have the 
resources. If the Chairman wants me to go out and have my 
people use resources to find out where business groups are on 
rules of origin, I will do it, but otherwise, I won't.
    Mr. LAHOOD. Well, I guess the concern is, as we look at the 
trade agreements we have in place in FTAs, when we look at 
these provisions--ISDS, we have talked about, rules of origin, 
sunset provision--these all appear to be very unorthodox and 
unconventional as we negotiate NAFTA, as we look at our other 
trade agreements.
    And so I think there is real concern, Mr. Ambassador, with 
the position that we have had there and having a trade policy. 
With that, I want to just mention, last year, when you had gone 
through your Senate confirmation, the Administration quoted: 
You will be shocked by the speed at which bilateral trade 
agreements will begin to materialize.
    And so I am a supporter of bilateral trade agreements. Many 
of us are. But we are 15 months into this Administration, and 
we have not seen a template or a model for bilateral trade 
agreements. And I understand you haven't had people in place, 
and I am cognizant of that, but when we look at, well, is there 
a model, is there a mechanism out there, particularly with your 
position on ISDS, rules of origin, and sunset, can you comment 
on that?
    Ambassador LIGHTHIZER. Well, I will comment on all of it, 
but I am not going to do it in 9 seconds, however.
    Number one, of course, we are going to have different 
policies than the Chamber of Commerce. Their policies are what 
have gotten us $800 billion worth of trade deficits. So, of 
course, we're going to have unconventional policies if we are 
going to have a different result. If we do exactly the same 
thing, nothing is going to change. This is an unsustainable 
trade deficit. We have a $560 billion goods and services trade 
deficit. We have a deficit with China which can't go on. It's 
$375 billion. We are going to do things differently, 
absolutely.
    I personally believe that these people who voted for the 
President voted for him because they didn't want it to be 
exactly like half of those groups want it to be. So, of course, 
it's going to be different, number one.
    Number two, in terms of--I am out of time.
    Chairman BRADY. Way out of time.
    Thank you, Mr. Ambassador.
    Ambassador LIGHTHIZER. Thank you.
    Chairman BRADY. Mr. Reed, you are recognized.
    Mr. REED. Mr. Ambassador, way over here.
    It is a pleasure to have you here today. I want to just 
follow up.
    The unconventional nature of what this Administration is 
doing is something I applaud, and I have stood with, because I 
agree that we just cannot maintain the status quo, because, as 
to your point, this policy is unsustainable.
    But I think we all want to get to the same outcome, and 
that is where I think we have broad agreement in regard to the 
issues before us today.
    Mr. Ambassador, I would be remiss not to go on the record 
to raise the issues of dairy and wine coming from western New 
York. The Finger Lakes wine industry is blossoming. And the 
access to--and our dairy farmers in western New York. The 
access to Canada, obviously--and I have shared this with you 
and I shared this with Prime Minister Trudeau directly, is very 
critical to our future. So I just put that on the record.
    But what I want to do is ask some questions that maybe 
haven't been covered here. And one of the issues that I have 
been very concerned about in my entire tenure as a Member of 
Congress on the issue of trade is currency manipulation and 
state-owned enterprises. My understanding of the negotiations 
that you are having right now with Canada and Mexico are that 
those issues are being discussed; those issues are being 
potentially put on the table in regard to updating NAFTA.
    And, one, do you agree that there are issues of currency 
manipulation across the world with other trading partners, such 
as China, Japan, European Union members, and, if that is the 
case, how do you see the present negotiations being a tool to 
put us in a position where we can take on truly what I believe 
is one of the unfair practices that is out there that has gone 
unaddressed for decades?
    Ambassador LIGHTHIZER. First of all, Congressman, I 
completely agree with you. I think it's one of the absolutely 
fundamental problems, is this issue of currency manipulation. 
And it's China, which everyone agrees to.
    If you go to the auto companies, they are going to tell you 
it is Japan, and it varies, but it's 6, 7, 8, 9 percent. We are 
worried about 2.5 percent on our auto tariffs. If the currency 
manipulation is 6 percent, then it is multiples of that.
    It's also an issue we believe with Korea.
    So the Administration is dealing with this on a variety of 
areas. And I tell you that I sit down with the pros who do this 
who work for me, my professional people who have done this for 
30 years, and I will say: Well, what did you do the last time 
you had this or that kind of conversation with the Treasury 
Department on the issue of currency manipulation?
    And do you know what they say? ``We've never had a serious 
conversation with any Treasury Department before this Treasury 
Department.''
    Secretary Mnuchin is completely engaged on this in a way 
that no former--literally, my career people, Republicans and 
Democrats, are like: We have never had a conversation like this 
where people really have to come to grips with the issue of 
currency manipulation.
    So we are dealing with it in the context of NAFTA, even 
though we realize these countries are not really currency 
manipulators. But they have the same interests we do in 
tackling this problem.
    And where you go, we'll see. Clearly, a huge, huge impact 
is, or factor, is transparency. We start with the position we 
don't even know what these people are doing. And competitive 
currency devaluation is going to be something that is 
unacceptable.
    It is a complicated issue. It is something that we are 
involved with, but it is a Treasury issue more than it is ours. 
And we have Treasury officials, besides the Secretary, David 
Malpass and the Secretary are completely locked in on this 
issue, and they are going to get absolutely as much as you can 
get on it.
    But I don't think you can overstate how important it is. 
And I think it will be more important in 10 years than it is 
now if we don't do something about it.
    Mr. REED. Well, I totally agree with you, Mr. Ambassador. I 
look forward to working with you, as well as the Treasury 
Secretary, as I have raised this issue with prior Treasury 
Secretaries in our tenure here.
    The other issue that I wanted to just highlight and stress 
to you is, as we deal with intellectual property, and I know it 
has been touched on a little bit here across the panel, but 
coming from an area with some interests that have really been a 
bright spot in regard to our innovation economy and the 
development of technology, I just wondered what your commitment 
or thoughts are on how we can best protect our intellectual 
property, our innovation, in the next generation of the 
economy, opportunities I see coming down the pipeline for us?
    Ambassador LIGHTHIZER. First of all, you understate the 
importance of intellectual property in your district. It is 
extremely important, and we understand that. Because it is 
important, those companies--particularly, one company is 
important for the whole economy.
    So we are completely committed, both in NAFTA, where I have 
talked about what our provisions are. Until now, there has 
really been a movement away from protection of intellectual 
property. In the last Administration, there was a movement away 
from the protection of intellectual property. We are 
recentering that, in our opinion.
    But even more importantly, I would suggest the whole 301, 
the whole IP protection with China, that is the absolute front 
line of protection of intellectual property.
    Mr. REED. I appreciate the hard work, Mr. Ambassador. I 
look forward to working with you.
    I yield back.
    Chairman BRADY. The gentleman yields back.
    Mr. Holding, you are recognized.
    Mr. HOLDING. Thank you, Mr. Chairman.
    Ambassador, thank you for being here. You have missed an 
incredible winter wonderland that is going on outside today. 
You will be glad you are going down the hill after this, rather 
than having to come up the hill.
    Regarding the tariffs on aluminum steel, I just encourage 
you to move expeditiously to determine which of our trading 
partners will be exempt from these new tariffs. There are 
countries that we, obviously, know are routinely engaged in 
unfair trading practices, but there are other countries which 
are undeniable allies to the United States, not only 
economically but for our national security, as well.
    You and I have talked before about the special relationship 
the United States has with the United Kingdom, and we have 
discussed the tremendous opportunity that is presented to the 
United States as the United Kingdom exits the European Union. 
The United Kingdom and the United States have a longstanding 
relationship. It goes without saying: it is certainly one of 
our closest allies.
    So, as you go through the exclusion process for specific 
countries, I had hoped that the United Kingdom is quickly 
identified by your office as being exempt.
    And I am sure you are also aware that, on Monday, there was 
a draft agreement put forward between the United Kingdom and 
the EU, so they are another step forward to finalizing their 
exit. And, in my opinion--and I think the opinion of a number 
of my colleagues--this is a time when we need to be encouraging 
the United Kingdom. They are undeniably a defense partner, they 
are a NATO partner, and I think not exempting them would be a 
step in the wrong direction.
    A potential free trade agreement would be particularly good 
at services. But I would say that not only are they a NATO 
partner, but if you look at how we are aligned with them in the 
promotion of capitalism, very few countries promote it the same 
way the United States and the United Kingdom do. Promotion of 
free markets.
    And perhaps, most importantly of all, is entrepreneurism. 
Entrepreneurism is alive and well in the United States, and it 
is alive and well in the United Kingdom, and it is not really 
alive and well, in our sense of the word, in a lot of other 
places around the world.
    So I would encourage you to work on that as expeditiously 
as possible. I know that Liam Fox was here last week, the 
Minister of International Trade. I am sure that you all had 
several meetings. I will just give you a minute or so if you 
wanted to recap and have anything to say about those meetings 
and about any thoughts that you and the Administration might 
have on our potential bilateral trade agreement.
    Ambassador LIGHTHIZER. Well, I would say, first of all, it 
is exactly as you say. I have met many times with Dr. Fox and 
found them all to be informative and enjoyable. We have an 
enormous amount in common. They clearly are--I think that it is 
probably the universal view in the Administration that we 
should, at the appropriate time, have--explore the idea of an 
FTA with the U.K.
    When that time is, is more up to them than it is to us. In 
the meantime, what we are trying to do is do the kinds of 
things that are in areas where they haven't seen the competence 
of the EU. So, for example, certifications of professionals. 
There are a lot of things we can do.
    We have a working group that we started, I guess, just 
about a year ago, that has had a number of meetings, a number 
of staff-level meetings. So we are getting a lot of the work 
done that would have to be done in advance of an FTA so that, 
at the right time, we can move quickly.
    The issue of the U.K. and 232 is a complicated one because 
of the fact that they are in the EU. So that is something that 
sort of has yet to be worked out. But, clearly, an FTA with 
them. Clearly other examples of working together or something 
is very high on our priority list, and I see no impediments at 
all to moving in that direction at the appropriate time.
    Mr. HOLDING. I am glad to hear you say that. I believe that 
a bilateral agreement with the United Kingdom could be a 
signature accomplishment of this Administration and would be 
the first time that we have encapsulated in writing what the 
special relationship means. It is a great opportunity for this 
Administration to leave a lasting mark, not only on 
geopolitical politics but on trade and trade policy.
    So thank you, Mr. Ambassador.
    Chairman BRADY. Thank you, Mr. Holding.
    Mr. Ambassador, thank you for being our witness today.
    Clearly, there is strong bipartisan support that the best 
way to lower our trade deficits are not to buy less but to sell 
more. We are confident in your ability in renegotiating NAFTA 
and other agreements to create a level playing field for 
American farmers and workers and businesses because when you 
do, we win. And there is no doubt there is strong support for 
your very aggressive stance in opening these markets and 
modernizing NAFTA in a significant way.
    That is why 103 Republicans--your strongest supporters--are 
encouraging you, urging you, to include strong accountability 
provisions because we want your strong new trade agreement for 
America to be accountable and to be supported here in Congress. 
We look forward to being your partners and your clients as we 
go forward.
    Ambassador, please be advised, Members of the Committee 
have 2 weeks to submit written questions to be answered later 
in writing. Those questions and your answers will be made part 
of the formal record.
    With that, Mr. Ambassador, thank you.
    The Committee stands adjourned.
    [Whereupon, at 1:40 p.m., the Committee was adjourned.]
    [Questions for the Record follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
